<html>
<title> - THE PRESIDENT'S REQUEST FOR AUTHORIZATION TO USE FORCE AGAINST ISIS: MILITARY AND DIPLOMATIC EFFORTS</title>
<body><pre>[Senate Hearing 114-90]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 114-90

                  THE PRESIDENT'S REQUEST FOR AUTHORIZATION 
                   TO USE FORCE AGAINST ISIS: MILITARY AND 
                             DIPLOMATIC EFFORTS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 11, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
                     U.S. GOVERNMENT PUBLISHING OFFICE
96-801 PDF                WASHINGTON : 2015                     
_______________________________________________________________________________________
   
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f196819eb19284828599949d81df929e9cdf">[email&#160;protected]</a>  
               
               
               
               
               
               
               
               
               
               
               COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts
              Lester E. Munson III, Staff Director        
           Jodi B. Herman, Democratic Staff Director        

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Carter, Hon. Ashton B., Secretary of Defense, U.S. Department of 
  Defense, Washington, DC........................................     9
    Prepared statement...........................................    10
    Responses of Secretary of Defense Ashton Carter to questions 
      submitted by Senator Bob Corker............................    58
Corker, Hon. Bob, U.S. Senator From Tennessee....................     1
Dempsey, General Martin, Chairman of the Joint Chiefs of Staff, 
  U.S. Department of Defense, Washington, DC.....................    11
    Response of General Martin Dempsey to question submitted by 
      Senator Bob Corker.........................................    59
Kerry, Hon. John F., Secretary of State, U.S. Department of 
  State, Washington, DC..........................................     4
    Prepared statement...........................................     7
Menendez, Hon. Robert, U.S. Senator From New Jersey..............     3

              Additional Material Submitted for the Record

Prepared statement submitted by Senator Barbara Boxer............    57

                                 (iii)

  

 
 THE PRESIDENT'S REQUEST FOR AUTHORIZATION TO USE FORCE AGAINST ISIS: 
                    MILITARY AND DIPLOMATIC EFFORTS

                              ----------                              


                       WEDNESDAY, MARCH 11, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m., in 
room 106, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Risch, Rubio, Johnson, Flake, 
Gardner, Perdue, Isakson, Paul, Barrasso, Menendez, Boxer, 
Cardin, Shaheen, Coons, Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order. I want to welcome our distinguished witnesses today, and 
thank you for taking the time to be here. This is an important 
topic. We know that each of you has been traveling extensively, 
and again want to thank you for being with us today to share 
your insights.
    I think everybody on this committee cares first and 
foremost that we have a policy, a strategy, to deal with ISIS 
that is in relation to our national interests, that the two are 
aligned. And I think that is paramount, and what most people in 
America care about, and certainly everyone on this committee.
    Secondarily to that, from my perspective, is the 
authorization process itself, and yet we find ourselves in an 
interesting place. The President, which I appreciate, has sent 
to us an authorization for the use of military force. That was 
welcomed I think by both sides of the aisle. As we have 
received that authorization for the use of military force, what 
we have come to understand is that, and this is not a 
pejorative statement, it is an observation: we do not know of a 
single Democrat in Congress--in the United States Senate 
anyway--that supports that authorization for the use of 
military force.
    On the other hand, the authorization for the use of 
military force that has been sent up is one that is limited in 
some ways, both in duration and relative to the activities that 
the Commander in Chief, through you, can carry out. And so, 
what that does on this side of the aisle is put Republican 
Senators in the position of looking at a limited authorization 
for the use of military force that in some ways ratifies a 
strategy, especially in Syria, that many people do not believe 
is effective--one that does not show the commitment necessary 
to really be successful in the short term.
    So I think this hearing today will be very helpful in 
trying to come together and to understand, number one, that we 
have a strategy in Syria that is in our national interests, 
that we have a strategy in Iraq that is in our national 
interests, and we understand that ISIS obviously is 
promulgating in many other places.
    I was in Baghdad and Erbil 3 weeks ago, and regardless of 
how we have gotten to where we are today, and I know a lot of 
things have been said about decisions that have been made along 
the way, one of the things that jumped out at me, very 
glaringly, is that in many ways every single thing the United 
States is doing right now in Iraq, things that I support, I 
might add, to deal with ISIS, every single thing that we are 
doing is really inuring to the benefit of Iran. In other words, 
we are making Iraq a better place for Iran.
    No doubt Abadi wants one foot in our country and one foot 
in Iran, and no doubt he is looking for our assistance, and no 
doubt he looks to us as a balance. But when you look at the way 
Iran has permeated the Parliament there, when you look at 
Suleimani and the fact that he is a celebrity in Iran now and 
leading the efforts of the Shia militia, it is something that 
jumps out. And I hope that during today, all of you will be 
able to illuminate how we should feel about that. Should we 
care? I know we have had numbers of people getting exercised 
about the fact that we have Iranian-led Shia militia dealing 
with ISIS.
    Because of the observations that I have made, I am not sure 
that that should even be an issue. In essence, we are working 
toward the same end, but I would love to hear your thoughts on 
that. And what may occur after March 24 in the event there is 
not an agreement with Iran over the nuclear program, how will 
that affect how the Shia militia--that is very close in 
proximity to our own men and women in uniform--how that might 
affect them.
    And in closing, I hope that what you will do today also is 
to illuminate to us why some of the decisions we know are key. 
After being in Erbil and Baghdad, I was in Ankara with our 
Turkish friends. I know a decision memo has been in front of 
the President for some time relative to an air exclusion zone 
in Aleppo, and decisions about how we may or may not deal with 
protecting those that we are training and equipping right now 
to come in against ISIS. I do not think we have made those 
decisions yet. And I think to many of us here, what that shows 
is potentially a lack of commitment, if you will, to really 
deal with ISIS in a more significant way. That may not be the 
case, and I hope today during your testimony we will be able to 
understand more fully the lack of those decisions being made, 
what that means relative to the overall effort.
    So I welcome you here. And I think all three of you have 
been highly regarded by members of the United States Senate on 
both sides of the aisle. And we trust your testimony today will 
be very beneficial to us as we move ahead. And with that, I 
will turn to our very, very distinguished ranking member, 
Senator Robert Menendez.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. Thank you to 
Secretaries Kerry and Carter and Chairman Dempsey, for being 
here with us today.
    Last December, this committee reported a resolution to 
authorize the use of military force to counter ISIL. We acted 
because many of us shared a view then and now that we stood 
with the President to defeat ISIL, that the 2001 AUMF was not 
and is not intended to apply to our current engagement in Iraq 
and Syria. We believed then as now that it is imperative that 
Congress authorize any further military action against ISIL. It 
is imperative that we do not shoehorn this conflict into an old 
AUMF. And it may be convenient, but it is not right. We have an 
obligation to the families who are sending their children into 
harm's way to understand our goals, what is achievable and what 
is not, and ultimately to vote to authorize or not authorize 
the use of force.
    The committee had extensive discussions of many of these 
issues last year, and the AUMF we passed had a restriction on 
the deployment of ground troops, allowing for all potential 
uses that the administration had so far identified, including 
the use of special operations forces to go after high value 
ISIL targets, search and rescue of downed pilots, the use of 
forward air controllers with Iraqi units to better direct 
coalition airstrikes. It also repealed the 2002 AUMF in Iraq 
and set a 3-year timeframe for Congress to reconsider the 9/11 
AUMF.
    What it did not do, and what I think Democrats are not 
willing to do, is to give this or any other President an open-
ended authorization for war, a blank check. And as someone who 
opposed the 2002 Iraq AUMF, and who has seen the 2001 
authorization that I did support go far beyond where anyone 
would have contemplated, this is the critical question moving 
forward.
    So I look forward to getting some answers from our 
witnesses that will allow us to move forward in writing and 
passing an authorization. But we need to know what combat 
operations may be undertaken by United States troops on the 
ground in Syria and Iraq. We need to know whether associated 
forces that come under this agreement could include forces 
affiliated with ISIL in Libya, Nigeria, or elsewhere. We need 
to know whether a new administration could revert to relying on 
the 2001 AUMF in 3 years if this AUMF, if passed, were to 
expire. And we need to know how long we expect to be there and 
what our exit strategy will be, what metrics will indicate 
success, or tell us it is time to bring troops home.
    We heard from General Allen 2 weeks ago that under the 
President's proposed language prohibiting enduring offensive 
combat forces, that U.S. troops could be deployed for as little 
as 2 weeks or as long as 2 years before they would trigger the 
restriction on no enduring offensive operations. On the other 
hand, General Dempsey said last week that he does not view this 
language as time restrictive, but as mission specific. So 
General Dempsey believes the language in this AUMF would allow, 
for example, United States ground forces to accompany Iraqi 
forces into Mosul. Clearly, there is a need to define exactly 
what would be allowed. And it would seem to me that legally 
there is at least the potential for large numbers of United 
States troops to be deployed in Iraq and Syria, and maybe 
beyond, with the authorization as submitted.
    So, Mr. Chairman, I look forward to hearing the answers to 
these and other questions from our distinguished witnesses, and 
I thank you for this opportunity.
    The Chairman. Absolutely. Thank you for your comments. And, 
again, we have three outstanding witnesses. We want to welcome 
you here. As I understand it, Secretary Kerry is going to 
begin, followed by Secretary Carter, followed by Chairman 
Dempsey. We are honored that you are here before us. Look 
forward to your testimony, and I think you all know the drill. 
If you will, keep it to about 5 minutes if that is possible, 
and we will ask questions after. Thank you for being here.

   STATEMENT OF HON. JOHN F. KERRY, SECRETARY OF STATE, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Kerry. Well, Chairman Corker and Ranking Member 
Menendez, members of the committee, we are pleased to be here. 
I am pleased to return here, and particularly so in the 
distinguished company of Defense Secretary Ash Carter and our 
Chairman of the Joint Chiefs of Staff Marty Dempsey.
    From my 29 years of service on this committee, I have 
nothing but respect for the committee's prerogatives, and 
particularly the role that it can play on a critical issue like 
this. We are very simply looking for, as I think both of you, 
Mr. Chairman, Ranking Member Menendez, have said, the 
appropriate present-day authorization, not, as you said, 
Senator Menendez, 2001, but a 2015 statement by the United 
States Congress about the authority with which we should be 
able to go after, degrade, and destroy, as the President has 
said, the group known as ISIL or Daesh.
    Now, Mr. Chairman, in our democracy, there are many views 
about the challenges and the opportunities that we face, and 
that is appropriate. That is who we are. But I hope we believe 
that there is an overwhelming consensus that Daesh has to be 
stopped. Our Nation is strongest, always has been, when we act 
together. It is a great tradition in this country of foreign 
policy having a special place, that politics ends at the 
water's edge, and that we will act on behalf of our Nation 
without regard to party and ideology.
    We simply cannot allow this collection of murderers and 
thugs to achieve, in their group, their ambition, which 
includes, by the way, most likely the death or submission of 
all those who oppose it, the seizure of land, the theft of 
resources, the incitement of terrorism across the globe, the 
killing and attacking of people simply for what they believe or 
for who they are. And the joint resolution that is proposed by 
the President provides the means for America and its 
representatives to speak with a single powerful voice at this 
pivotal hour.
    When I came here last time, I mentioned that----
    [Disturbance in hearing room.]
    Voice. The American people are speaking out, Secretary 
Kerry. We are tired of an endless war. We do not want go into 
war with no----
    The Chairman. The committee will be in order. Look, we 
appreciate----
    Voice [continuing]. In another endless war and killing of 
innocent people.
    The Chairman. Okay. If this happens again, I would ask the 
police to immediately escort people out of the room.
    Voice [continuing]. Creating more terrorism, killing more 
innocent people.
    Secretary Kerry. Killing more innocent people. I wonder how 
our journalists who were beheaded and a pilot who was fighting 
for freedom who was burned alive, what they would have to say 
to their efforts to protect innocent people.
    ISIL's momentum has been diminished, Mr. Chairman. It is 
still picking up supporters in places obviously. We have all 
observed that. But in the places where we have focused and 
where we are asking you to focus at this moment in time, it is 
clear that even while savage attacks continue, there is the 
beginning of a process to cut off their supply lines, to take 
out their leaders, to cut off their finances, to reduce the 
foreign fighters, to counter the messaging that has brought 
some of those fighters to this effort. But to ensure its 
defeat, we have to persist until we prevail in the broad-based 
campaign along multiple lines of effort that have been laid out 
over the course of the last months.
    The President already has statutory authority to act 
against ISIL, but a clear and formal expression of this 
Congress' backing at this moment in time would dispel doubt 
that might exist anywhere that Americans are united in this 
effort. Approval of this resolution would encourage our friends 
and our partners in the Middle East. It would further energize 
the members and prospective members of the global coalition 
that we have assembled to oppose Daesh. And it would constitute 
a richly deserved vote of confidence in the men and women of 
our Armed Forces who are on the front lines prosecuting this 
effort on our behalf. Your unity would also send an 
unmistakable message to the leaders of Daesh. They have to 
understand they cannot divide us. Do not let them. They cannot 
intimidate us, and they have no hope of defeating us.
    The resolution that we have proposed would give the 
President a clear mandate to prosecute the armed component of 
this conflict against Daesh and associated persons or forces 
which we believe is carefully delineated and defined. And while 
the proposal contains certain limitations that are appropriate 
in light of the nature of this mission, it provides the 
flexibility that the President needs to direct a successful 
military campaign. And that is why the administration did 
propose a limitation on the use of ``enduring offensive ground 
combat operations.'' I might add, that was after the 
committee--then committee chair, Senator Menendez, and the 
committee moved forward with its language, and we came up here 
and testified, and responded basically to the dynamics that 
were presented us within the committee and the Congress itself.
    So the proposal also includes no geographic limitation, not 
because there are plans to take it anywhere, but because it 
would be a mistake to communicate to ISIL----
    [Disturbance in the hearing room.]
    Voice. The United States in the world. The United States is 
killing innocent civilians----
    The Chairman. I would just remind those in the audience--we 
live in a country where people have the opportunity to express 
themselves in democratic ways. We would hope that you would 
allow this hearing to proceed in an orderly way and respect 
other citizens' rights to be here and to observe what is 
happening in a civil manner. I would say that I do not think 
you are helping your cause. I would say you are hurting your 
cause, and hopefully you will remain in an appropriate manner. 
Thank you.
    Secretary Kerry. Mr. Chairman, thank you. The point of the 
no geographic limitation is not that there are any plans or any 
contemplation. I think the President has been so clear on this. 
But what a mistake it would be to send a message to Daesh that 
there are safe havens, that there is somehow just a two-country 
limitation, so they go off and put their base in a third 
country, and then we go through months and months of 
deliberation. Again, we cannot afford that. So that is why 
there is no limitation.
    And, Mr. Chairman, we know that there are groups in the 
world, affiliated terrorist groups, who aspire to harm the 
United States, our allies, our partners. Daesh is, however, 
very distinctive in that because it holds territory, and it 
will continue if not stopped to seize more because it has 
financial resources, because of the debilitating impact of its 
activities in the broader Middle East, because of its 
pretensions to worldwide leadership, and because there have 
been culpable and violent deaths of Americans and others.
    And I do not need to preview for this committee the full 
litany of the outrages that are committed by Daesh. But let me 
just say that just among them, scratching the surface, are 
atrocities against Syrian Christians and Yazidi religious 
communities, the crucifixion of children, the sale and 
enslavement of women and girls, the hideous murder of captives 
from as near as Jordan and as distant as Japan, and the 
destruction of irreplaceable cultural and historical sites, the 
plunder and destruction of cities and towns in which followers 
of Islam worship and raise their families.
    Now, I testified before this committee just a couple of 
weeks ago regarding our strategy for disrupting and defeating 
ISIL. That strategy continues to move forward on all fronts. 
Secretary Carter and General Dempsey will touch on the military 
elements. But I can say from a diplomatic perspective that the 
world is strongly united in seeking Daesh's defeat. Our 
coalition is receiving help from governments throughout and 
beyond the Middle East, governments that may disagree on other 
issues, but not about the need to take decisive action against 
Daesh.
    And to date, we have a coalition of some 62 members, 
including 14 nations that are contributing directly to the 
operations against Daesh in Iraq or in Syria, 16 of which have 
committed to help train or otherwise assist Iraqi security 
forces. Since the coalition came together less than half a year 
ago, we have stopped ISIL's surge, we have degraded its 
leadership, we have forced it to change its communications and 
its movement and its tactics, and heavily damaged its revenue 
generating oil facilities. And if you have a classified 
briefing, I think you will get a very good grounding in the 
progress that is being made to date.
    We continue to see progress in governance in Iraq where new 
leaders are working to strengthen and reform the country's 
security forces through the purging of incompetent or corrupt 
officers and the more extensive inclusion of Sunni fighters. In 
Tikrit right now, there are nearly a thousand Sunni taking 
part. There is a cross section of engagement.
    So, Mr. Chairman, just to respond--move rapidly here.
    The Chairman. We are not moving that rapidly actually.
    Secretary Kerry. Well, that is why I am cutting--I am going 
to cut to the chase.
    The Chairman. Okay, good.
    Secretary Kerry. Responding to the threat posed by ISIL is 
just not a partisan issue, at least it should not be. It is not 
even a bipartisan issue. It is really a test that transcends 
political affiliations, and it is a tremendous challenge to the 
security of our Nation and to the values of our citizens. And 
so, it is really the kind of challenge that this committee is 
here to deal with. And my hope is that we will live up to the 
tradition that we have never failed to meet in the past, that 
when we had this kind of challenge, the Congress came together, 
the Senate particularly, I think, in this format. And I am 
confident that we can do so here again today and in the next 
few days.
    So I am happy to respond to your questions, but first I 
will turn to Secretary Carter.
    [The prepared statement of Secretary Kerry follows:]

         Prepared Statement of Secretary of State John F. Kerry

    Chairman Corker and members of the committee, I'm pleased to return 
here and to do so in the distinguished company of Defense Secretary Ash 
Carter and General Martin Dempsey, Chairman of the Joint Chiefs.
    This panel is looked to for leadership--and justifiably so--on the 
full range of international issues, but few topics are of such 
paramount importance as the one that brings us together today. The 
administration seeks the committee's support and that of the entire 
Congress for a joint resolution to authorize the use of military force 
against the terrorist organization known as ISIL.
    Mr. Chairman, in our democracy, there are many views about the 
challenges and opportunities we face, but I hope and believe that there 
is an overwhelming consensus that ISIL must be stopped. Our Nation is 
strongest when we act together--and we simply cannot allow this 
collection of murderers and thugs to achieve its ambitions--which 
include the death or submission of all who oppose it, the seizure of 
land, the theft of resources, and the incitement of terrorist acts 
across the globe.
    The joint resolution proposed by the President provides the means 
for America and its representatives to speak with a single powerful 
voice at this pivotal hour, when ISIL's momentum has diminished amid 
signs of fragmentation--but its savage attacks continue. To ensure its 
defeat, we must persist until we prevail in the broad-based campaign 
along multiple lines of effort that is now underway.
    The President already has statutory authority to act against ISIL, 
but a clear and formal expression of your backing would dispel any 
doubt anywhere that Americans are united in this effort. Approval of 
this resolution would encourage our friends and partners in the Middle 
East; it would further energize the members and prospective members of 
the global coalition we have assembled to oppose ISIL; and it would 
constitute a richly deserved vote of confidence in the men and women of 
our Armed Forces. Your unity would also send an unmistakable message to 
the leaders of ISIL--who must understand that they cannot divide us; 
they cannot intimidate us; and they have no hope of defeating us.
    The resolution we have proposed would give the President a clear 
mandate to prosecute armed conflict against ISIL and associated persons 
or forces. And while the proposal contains certain limitations that are 
appropriate in light of the nature of our mission, it provides the 
flexibility the President needs to direct a successful military 
campaign.
    That is why the administration has proposed a limitation on the use 
of ``enduring offensive ground combat operations.'' The administration 
sees no need for U.S. Forces to engage in enduring offensive ground 
combat operations against ISIL. That is the responsibility of our local 
partners--a task they are determined and preparing to meet.
    The proposal includes no geographic limitation, although we do not 
anticipate conducting operations against targets in countries other 
than Iraq and Syria at this time. It would be a mistake to communicate 
to ISIL that there are safe havens for them outside of Iraq and Syria, 
by limiting the authorization to specific countries.
    Mr. Chairman, we know that there are many terrorist groups in the 
world that aspire to harm the United States, our friends, and our 
partners. ISIL is distinctive, however, because it holds territory and 
will continue--if not stopped--to seize more; because of its financial 
resources; because of the destabilizing impact of its activities on the 
broader Middle East; because of its pretentions to worldwide 
leadership; and because it has already been culpable in the violent 
death of Americans. I don't need to review for this committee the full 
litany of outrages committed by ISIL, but I will say that among them 
are atrocities against the Assyrian Christian and Yazidi religious 
communities; the crucifixion of children; the sale and enslavement of 
women and girls; the hideous murder of captives from as near as Jordan 
and as distant as Japan; the destruction of irreplaceable cultural 
sites; and the plunder and destruction of cities and towns in which 
followers of Islam worship, work, and raise their families.
    Just 2 weeks ago--as part of our budget presentation--I testified 
before this committee regarding our strategy for disrupting and 
defeating ISIL. That strategy continues to move forward on all fronts. 
Secretary Carter and General Dempsey will touch on the military 
elements, but I can say--from the diplomatic perspective--that the 
world is strongly united in seeking ISIL's defeat. Our coalition is 
receiving help from governments throughout and well beyond the Middle 
East--governments that may disagree on other issues but not about the 
need to take decisive action against ISIL. To date, we have assembled a 
coalition of 62 members, including 14 nations contributing to air 
operations against ISIL in Iraq or Syria, and 16 which have committed 
to help train or otherwise assist Iraqi security forces. Since the 
coalition came together less than half a year ago, we have stopped 
ISIL's surge, degraded its leadership, forced it to change its 
communications and tactics, and heavily damaged its revenue-generating 
oil facilities.
    We also continue to see progress on governance in Iraq, where the 
new leaders are working to strengthen and reform the country's security 
forces through the purging of incompetent or corrupt officers and the 
more extensive inclusion of Sunni fighters.
    Have no doubt, marginalizing and defeating ISIL in Iraq will be a 
difficult and time-consuming process. Defeating ISIL in Syria--with 
Syria's brutal and repressive government--will be even harder and take 
more time. But the principles at stake in each country are the same and 
so is our determination. In Syria, as in Iraq, our goal is to support 
effective and inclusive leadership and a more stable country where 
violent extremism is no longer a major threat and refugees are able to 
return home and live normal lives.
    Mr. Chairman and members of the committee, I hope that in thinking 
about this issue, we will all bear in mind the difference between a 
future in which ISIL is on the rampage, gobbling up land, attracting 
recruits, and striving to sow terror beyond every boundary--and a 
future in which that loathsome organization has been defeated on the 
battlefield, plunged into bankruptcy, and is widely seen on social 
media and in the court of public opinion as the loser that it is. 
Between those two futures; there can be only one choice.
    Responding to the threat posed by ISIL is obviously not a partisan 
issue. It is not really even a bipartisan issue. It's a test that 
transcends political affiliations altogether; it's a tremendous 
challenge to the security of our Nation, the values of our citizens, 
and the well-being of friends and allies across the globe; it's the 
kind of challenge that this committee and our country have never in the 
past failed to meet--and that I am confident we will embrace today with 
courage and unity.
    I will be pleased to respond to your questions but with your 
permission, Mr. Chairman, I will yield first to my colleague and 
friend, Secretary of Defense Ash Carter.

    The Chairman. Thank you. Secretary Carter, thank you.

STATEMENT OF HON. ASHTON B. CARTER, SECRETARY OF DEFENSE, U.S. 
             DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Secretary Carter. Mr. Chairman, Ranking Member Menendez, 
all the members of the committee, thank you for giving me the 
opportunity to be with you today on this important subject. 
Before I begin, I am sure you are all aware that a UH-60 
Blackhawk helicopter was involved in an accident last night 
near Eglin Air Force Base in Florida. We know there were four 
air crew, Army, from a National Guard Unit in Hammond, LA, and 
seven marines assigned to Camp Lejeune, NC, on board that 
helicopter. And I know that with me--our thoughts and prayers 
are with them and their families as the search and rescue 
continues.
    Just as I know we are all proud to have the finest fighting 
force the world has ever known. That is why at the end of my 
first week as Secretary of Defense I traveled to Afghanistan 
and Kuwait where I thanked our men and women in uniform for 
their contributions to important missions. And in Kuwait, I 
talked with our ambassadors and our military leaders in the 
region about the campaign against ISIL.
    The trip confirmed for me that ISIL represents a serious 
and complex threat, especially in our interconnected and 
networked world. But it also confirmed to me that the enemy can 
be defeated, and we will deliver ISIL a lasting defeat. And I 
am happy to share my thoughts about that campaign with you, but 
let me turn to the subject of this hearing, which is the 
authorization for the use of military force.
    And in reviewing the President's AUMF as Secretary of 
Defense, I asked myself two questions. First, does it provide 
the necessary authority and flexibility to wage our campaign, 
allowing for a full range of likely military scenarios? And 
second, will it send the message to the people I am responsible 
for, our brave men and women in uniform and the civilian 
personnel who will wage this campaign, that the country is 
behind them? I believe the President's AUMF does both, and I 
urge Congress to pass it. And let me explain why I judge that 
the proposed AUMF gives the authority and flexibility needed to 
prevail in this campaign.
    First, the proposed AUMF takes into account the reality, as 
Secretary Kerry has noted already, that ISIL is an 
organization--as an organization is likely to evolve 
strategically, morphing, rebranding, and associating with other 
terrorist groups, while continuing to threaten the United 
States and our allies. Second, the proposed AUMF wisely does 
not include any geographical restriction because ISIL already 
shows signs of metastasizing outside of Syria and Iraq.
    Third, the President's proposed authorization provides 
great flexibility and the military means we need as we pursue 
our strategy with one exception. The proposed AUMF does not 
authorize long-term, large-scale offensive ground combat 
operations like those we conducted in Iraq and Afghanistan 
because our strategy does not call for them. Instead, local 
forces must provide the enduring presence needed for an 
enduring victory against ISIL.
    And fourth and finally, the proposed AUMF expires in 3 
years. I cannot tell you that our campaign to defeat ISIL would 
be completed in 3 years, but I understand the reason for the 
proposed sunset provision. It derives from the important 
principle stemming from the Constitution that makes the grave 
matter of enacting an authorization for the use of military 
force a shared responsibility of the President and Congress.
    The President's proposed authorization affords the American 
people the chance to assess our progress in 3 years' time and 
provide the next President and the Congress the opportunity to 
reauthorize it if they find it necessary. To me, this is a 
sensible and principled provision of the AUMF, even though I 
cannot assure that the counter-ISIL campaign will be completed 
in 3 years.
    Now, in addition to providing the authority and flexibility 
to wage a successful campaign, I said I had another key 
consideration as Secretary of Defense, and that is sending the 
right signals, most importantly to the troops. Passing the 
proposed AUMF will demonstrate to our personnel that their 
government stands behind them. And as Secretary Kerry 
explained, it will also signal to our coalition partners and 
our adversaries that the United States government has come 
together to address a serious challenge.
    We all took an oath to protect the Nation and its 
interests, but to do so we must work together. I know everyone 
on this committee takes the ISIL threat seriously, and 
President Obama and everyone at this table does as well. We 
encourage a serious debate, but I urge you to pass the 
President's AUMF because it provides the necessary authority 
and flexibility to wage our current campaign, and because it 
will demonstrate to our men and women in uniform, some of whom 
are in harm's way right now, that all of us stand unflinchingly 
behind them.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Carter follows:]

                    Prepared Statement of Ash Carter

    Chairman Corker, Ranking Member Menendez, and members of the 
committee, as you know, I recently returned from my first trip abroad 
as Secretary of Defense.
    My last stop was in Kuwait, where I thanked our men and women in 
uniform for their contributions to an important mission and talked with 
our Ambassadors and military leaders in the region about our campaign 
against ISIL.
    The trip confirmed for me that ISIL represents a serious and 
complex threat, especially in our interconnected and networked world. 
But it also confirmed the enemy can be defeated. We will deliver ISIL a 
lasting defeat.
    Let me take a few moments to share with you my view of this fight.
    First, defeating ISIL will require a combined U.S. diplomatic and 
military effort, and I believe DOD's partners in the U.S. Government, 
at this table, and in the region, are unified and working together 
effectively. Second, while the 62-member coalition the United States is 
leading is a great strength, we can--and we will--do a better job 
leveraging the individual contributions of each member. Third, while we 
are conducting the current campaign in Iraq and Syria, it has clear 
ramifications for other parts of the Middle East and other regions of 
the world. Fourth, ISIL's sophisticated communications strategy, 
including its use of social media, requires us to be more creative in 
combating it in the information dimension.
    Our counter-ISIL strategy for enduring success calls for U.S. 
military and coalition forces to conduct a systematic air campaign in 
Iraq and Syria, and counts on local forces to conduct ground 
operations. While our program to train and equip vetted elements of the 
Syrian opposition is just getting off the ground, our strategy is 
already having effect in Iraq, where America and our coalition partners 
have helped local forces--the key to a lasting victory against ISIL--
seize the initiative.
    In reviewing the President's proposed Authorization for the Use of 
Military Force, as Secretary of Defense, I asked two questions:
    First, does it provide the necessary authority and flexibility to 
wage our current campaign, allowing for a full range of likely military 
scenarios?
    Second, will it send the message to the people I am responsible 
for--our brave men and women in uniform, and civilian personnel who 
will wage this campaign--that the country is behind them?
    I believe the President's proposed AUMF does both. And I urge this 
Congress to pass it.
    Let me explain why I judge that the proposed AUMF gives the 
authority and flexibility needed to prevail in this campaign.
    First, the proposed AUMF takes into account the reality that ISIL 
as an organization is likely to evolve strategically . . . morphing, 
rebranding, and associating with other terrorist groups, while 
continuing to threaten the United States and our allies.
    Second, the proposed AUMF wisely does not include any geographical 
restriction because ISIL already shows signs of metastasizing outside 
of Syria and Iraq.
    Third, the President's proposed authorization provides great 
flexibility in the military means we need as we pursue our strategy, 
with one exception: the proposed AUMF does not authorize long-term, 
large-scale offensive ground combat operations like those we conducted 
in Iraq and Afghanistan . . . because our strategy does not call for 
them. Instead, local forces must provide the enduring presence needed 
for an enduring victory.
    Fourth and finally, the proposed AUMF expires in 3 years. I cannot 
tell you our campaign to defeat ISIL will be completed in 3 years. But 
I understand the reason for the proposed sunset provision. It derives 
from the important principle, stemming from the Constitution, that 
makes the grave matter of enacting an authorization for the use of 
military force a shared responsibility of the President and Congress. 
The President's proposed authorization affords the American people the 
chance to assess our progress in 3 years' time, and provides the next 
President and the next Congress the opportunity to reauthorize if they 
find it necessary. To me, this is a sensible and principled provision 
of the AUMF, even though I cannot assure that the counter-ISIL campaign 
will be completed in 3 years.
    In addition to providing the authority and flexibility to wage a 
successful campaign, I said I had another key consideration as 
Secretary of Defense: sending the right signals, most importantly, to 
the troops.
    Passing the proposed AUMF will demonstrate to our personnel that 
their government stands behind them. And, as Secretary Kerry explained, 
it will signal to our coalition partners and to our adversary that the 
United States Government has come together to address a serious 
national challenge.
    Mr. Chairman, members of the committee, we have all learned 
lessons--many of them hard won--from the past 13-plus years of war. Our 
experience informs our strategy, just as I am sure it informs all our 
opinions on this issue. I know that some worry the proposed 
authorization places too many limitations on DOD. And I know others are 
concerned that the authorization does not impose enough constraints. I 
am confident that the proposed AUMF gives DOD the authority and 
flexibility required to execute our strategy and stamp out ISIL.
    We all want Congress in this important fight. That is why President 
Obama committed to an ISIL AUMF, even though existing AUMFs provide the 
necessary legal authority for our ongoing military operations in Iraq 
and Syria. It is also why the administration has worked closely with 
members of this committee and the Congress to develop the proposed 
language before you. And the discussion we are engaging in today helps 
the American people understand the stakes in this fight, just as our 
civil deliberation stands in sharp contrast to the discourse of our 
barbaric and oppressive enemy.
    We all took an oath to protect the Nation and its interests. But to 
do so, we must work together. I know everyone on this committee takes 
the ISIL threat seriously. President Obama--and everyone at this 
table--does as well.
    We encourage a serious debate. But I urge you to pass the 
President's AUMF because it provides the necessary authority and 
flexibility to wage our current campaign. Because it is the best next 
step in our work together to degrade and defeat ISIL. And because it 
will demonstrate to our men and women in uniform--some of whom are in 
harm's way right now--that all of us stand unflinchingly behind them.

STATEMENT OF HON. GENERAL MARTIN DEMPSEY, CHAIRMAN OF THE JOINT 
  CHIEFS OF STAFF, U.S. DEPARTMENT OF DEFENSE, WASHINGTON, DC

    General Dempsey. Mr. Chairman, Ranking Member, 
distinguished members of this committee, thank you for the 
opportunity to appear before you today. Let me begin by adding 
my personal thoughts and prayers to those of the Secretary of 
Defense at the loss of the folks on that helicopter, a reminder 
to us that those who serve put themselves at risk both in 
training and in combat. And we will work with the services to 
assure those survivors or, I should say, their family members 
will be well cared for.
    The Chairman. And if I could, the committee will join in 
that. Thank you.
    General Dempsey. Yes, sir. Thank you. I appreciate the 
opportunity to be here today with Secretary Kerry and Secretary 
Carter. I just returned yesterday from a trip to the Middle 
East. I spent a day in Baghdad with Iraqi and U.S. leaders 
discussing our strategy against ISIL. I also spent a day with 
my French counterpart and 2,000 of France's sailors and marines 
aboard the aircraft carrier Charles de Gaulle in the Arabian 
Gulf. Our U.S. Navy aircraft carrier Carl Vinson was just off 
the starboard side. These two great vessels sitting side by 
side, their combat aircraft, and importantly their crews, are a 
powerful image of partnership and commitment in this fight. It 
is actually the solidarity of all of our coalition members that 
is fundamental to the strength of our campaign against this 
transregional threat that ISIL represents. The Government of 
Iraq has a lot of work yet to do with the help of the coalition 
to ensure ISIL is defeated and, importantly, stays defeated, 
and that will take time.
    I have been consulted on the proposed authorization for the 
use of military force against ISIL and its associated groups. 
It is suitable to the campaign as we have presently designed 
it. We should expect our enemies will continue to adapt their 
tactics, and we will adapt ours.
    Bipartisan support for an AUMF would send an important 
signal of national support to those who are serving in harm's 
way conducting this mission. I met with some of them over this 
past weekend, and they are performing magnificently as you 
would expect.
    I thank you for your commitment to our men and women in 
uniform, and I look forward to your questions.
    The Chairman. Thank you all for your testimony. And let me 
just begin with Secretary Carter and Chairman Dempsey. I know 
that Secretary Kerry mentioned that he feels that currently the 
AUMF that we have from 2001 and the one from 2002 gives the 
United States the legal authority in what is now occurring. I 
just wonder if both of you would answer ``yes'' or ``no'' 
whether you believe that to be the case.
    Secretary Carter. I do, yes.
    General Dempsey. Yes, Senator.
    The Chairman. Every witness who has come before us on 
behalf of the administration believes that currently we are 
operating under a legal premise with what we are doing against 
ISIS today.
    Let me ask you this question, Secretary Carter, Chairman 
Dempsey. Has there been any indication to the people we are 
dealing with as part of our coalition or the troops that 
Congress today is not behind what is happening on the ground 
with ISIS?
    Secretary Carter. I cannot speak to that, Mr. Chairman. I 
think that the folks I have talked to of ours do, in fact, 
believe that the outrages that Secretary Kerry described on the 
part of ISIL warrant the operation that they are involved in. 
And, of course, we do not do anything that is not lawful. I am 
not a lawyer, so I cannot tell you----
    The Chairman. Sure, but they do not--there is no one that 
you deal with that does not believe that Congress is 
wholeheartedly behind the effort to deal with ISIS. Is that 
correct?
    Secretary Carter. I have not talked to people who have the 
view one way or the other. They know that a hearing like this 
is going on. I think they know its purpose, and I presume, like 
me, they welcome a good outcome of it.
    The Chairman. Chairman Dempsey.
    General Dempsey. I have no data to suggest that they have 
any doubt about the support of the Congress of the United 
States or the American people.
    The Chairman. Chairman Dempsey, we have had some great 
conversations, and I always appreciate your candor. I know you 
have responded to this in other committees or at least 
publicly. Should there be any concern by people here that Iran 
is influencing the outcome against ISIS, has Shia militia on 
the ground, has some of its own personnel helping command and 
control? Is that a concern that anyone that cares about U.S. 
national interests should have?
    General Dempsey. Yes, of course. There are six things from 
the military's perspective that concern us about Iranian 
influence. Four of them are regional, and two of them are 
global. The four regional concerns are surrogates and proxies, 
some of which are present in Iraq, in Syria, in Lebanon, and 
other places in Yemen, weapons trafficking, ballistic missile 
technologies, and mines that they have developed with the 
intent to be able to close the Strait of Hormuz if certain 
circumstances would cause them to do it. And then the two 
global threats, of course, are their nuclear aspirations, not 
their nuclear aspirations for a peaceful nuclear program, but 
for a weapon, which is being dealt with in the negotiations on 
a diplomatic track. And then cyber is the other global threat 
they pose.
    So Iran's activities across the region and, in the cases of 
nuclear aspirations and cyber activities, are concerning, of 
course.
    The Chairman. But as it relates to dealing with Tikrit or 
Mosul--should we care that Iran's militias and others are 
involved in helping move ISIS out of those areas, or will help 
ISIS move out those areas when we begin the Mosul attack?
    General Dempsey. I think there is general consensus both 
inside of our own forces and also with the coalition partners 
with whom I engage that anything anyone does to counter ISIL 
is, in the main, a good outcome. In other words, the activities 
of the Iranians to support the Iraqi Security Forces is a 
positive thing in military terms against ISIL. But we are all 
concerned about what happens after the drums stop beating and 
ISIL is defeated, and whether the Government of Iraq will 
remain on a path to provide an inclusive government for all of 
the various groups within it. We are very concerned about that.
    The Chairman. And so, the concern is that once we hit that 
witching hour, if you will, when it appears that ISIS 
definitely is toward its end, all of a sudden the Shia militias 
and others would potentially turn on our own military, and 
other very negative things could occur at that time.
    General Dempsey. We have no indications that they intend to 
turn on us, but what we are watching carefully is whether the 
militias that call themselves the popular mobilization forces, 
whether when they recapture lost territory, whether they engage 
in acts of retribution and ethnic cleansing. There is no 
indication that that is a widespread event at this point, but 
we are watching closely.
    The Chairman. So if we could move to Syria, I know we 
talked a little bit about this. But this is, again, a term I 
think even the administration has begun to utilize themselves. 
It would appear that in Syria we are sort of in a containment 
mode, that we are really not taking aggressive steps to turn 
the tide there. We are obviously involved in some aerial 
attacks, but that it is more of a containment mode. When we say 
``Iraq first,'' Syria is more containment.
    We have a train and equip program right now, and I wonder 
if you could talk to us about two major decisions. One would be 
if we are going to train and equip folks in other countries 
that are being trained against ISIS--I know there has been an 
alleged ``other'' program that is against Assad himself. But if 
we are going to have an overt program that is going to deal 
with ISIS, I would assume that we would consider it only moral 
that if we are going to train them in other countries and bring 
them in, that we would supply air power and other support to 
protect them, especially from Assad's barrel bombs.
    I know that Senator Graham may have asked a question about 
whether this AUMF itself provides that legal authority. And I 
would just like to ask you: does the AUMF that the President 
has sent forth provide the legal authority for our military to 
protect those that we are training in other places against ISIS 
to protect them against Assad? In other words, take Assad on? 
And I would also like for you to, if you would, talk to us a 
little bit about why we have not yet agreed to the air 
exclusion zone that Turkey has asked us to approve that would 
more fully bring them in on the ground in Syria and actually 
get something much more positive occurring, at least as it 
relates to having some ground effort there.
    General Dempsey. I take it, Senator--you are looking 
straight at me, so I assume the question is for me.
    The Chairman. Yes.
    General Dempsey. So let me just briefly describe the way 
militarily we characterize our campaign against ISIL in Iraq 
and in Syria. I would not say that our goal is simply to 
contain ISIL inside of Syria, but rather we have got at this 
point militarily a main effort and a supporting effort. Our 
main effort is in Iraq because we have a credible ground 
partner for whom we supply this air power to distribute it and 
to degrade and eventually defeat ISIL inside of Iraq. We do not 
have that credible partner inside of Syria yet. We are taking 
steps to build that partner.
    In the meantime, we are attacking ISIL where we can using 
ISAR and close air support, both U.S. and some coalition 
partners, and it is intended to disrupt their activities so 
that they cannot complement each other. It was formally before 
we began this effort that ISIL could transit freely across that 
Syrian and Iraqi border and reinforce efforts on both sides. 
They are no longer able to do that. They are isolated and 
degraded in Syria while we conduct our main effort inside of 
Iraq.
    To your other question about whether the AUMF provides 
legal authority to protect the new Syrian forces as we have 
called them, the answer to that is no. We have not--the 
administration has not added a Syrian regime or an Assad 
component to the AUMF, although we are in active discussions 
within the interagency about what support we would supply once 
the new Syrian forces are fielded. Now, militarily there is a 
very pragmatic reason. You mentioned the moral obligation, I 
suppose. Let me not speak to that, but rather let me speak to 
the----
    The Chairman. Well, if I could, Congress has approved a 
significant amount of money to train and equip people to go 
against ISIS, and yet we know Assad will barrel bomb them in 
all likelihood, or at least members of their----
    General Dempsey. Right.
    The Chairman. So the President has actually sent us an AUMF 
that does not allow us to protect them against what we know 
they will be facing down the road. That, to me, is somewhat odd 
and does not seem congruent, if you will, with previous steps 
relative to train and equip. Can you understand why?
    General Dempsey. No, I understand completely, and I am not 
discounting the moral obligation. I am rather suggesting that--
I am giving you military advice under Article 1 responsibility. 
And militarily, there is a very pragmatic reason to support 
them, and that is we are not going to be able to recruit men 
into that force unless we agree to support them at some level.
    The Chairman. So militarily, I know we have had a pretty 
good crop that have signed up on the front end, or at least 
that is my understanding, but we cannot recruit more if we are 
not going to protect them. And yet the AUMF that we have before 
us does not allow us to protect them. Is that clearly what you 
are saying?
    General Dempsey. We are under active discussion about 
whether and how to support them, and part of that discussion is 
the legal authority to do so. And I would defer to those with 
that expertise.
    The Chairman. And I know I am way over, but the air 
exclusion zone, what is keeping us from those types of----
    General Dempsey. Yes. We have been in two rounds of 
discussions with our Turkish counterparts about that, and we 
are continuing to develop that option should it be asked for.
    The Chairman. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. Senator Boxer is 
the ranking member on the Environment and Public Works and had 
to go be part of that hearing. So I ask that her statement be 
included in the record.

[Editor's note.--Senator Boxer's prepared statement can be 
found in the ``Additional Material Submitted for the Record'' 
section at the end of this hearing.]

    Senator Menendez. And I have heard all of you several times 
refer to ``no geographic limitation.'' And so, for the purposes 
of the record, let it reflect that the AUMF that was passed out 
last year that Democrats put together has no geographic 
limitations, so I think there is--although there was a subject 
of debate. Nonetheless, it came to a conclusion to have no 
geographic limitations. So to that extent, you know, I know you 
have all raised it, and I want to deal with it.
    Let me ask you, General Dempsey, is it fair to say that for 
Iran-sponsored Shia militias in Iraq, fighting ISIL is 
definitely their immediate interest. But would it also be fair 
to say they have other designs beyond that?
    General Dempsey. It would be fair to say that that has not 
become evident, but it is of great concern to us who have 
served in Iraq since 2003. Iran is not a new entrant into the 
crucible of Iraq. They have been there since 2004. And in some 
cases, their economic influence in other ways has contributed 
to the future of Iraq, and in other ways it has absolutely been 
disruptive to the inclusiveness or the potential for an 
inclusive governance. So, I mean, believe me, I share your 
concerns, and we are watching carefully.
    The Tikrit operation will be a strategic inflection point 
one way or the other in terms of easing our concerns or 
increasing them.
    Senator Menendez. Well, I know that Suleimani is a cause 
celebre these days there, so I would like to believe that it is 
only to fight ISIL. But I do not believe that their purposes at 
the end of the day--we have different goals as it relates to 
Iraq, both in the short term as it relates to ISIL, and then in 
the long term of a Democratic multiethnic government. So it is 
a continuing concern.
    Now, Chairman Dempsey, you said in your remarks, and I do 
not have a copy of your statement, so correct me if I am wrong 
here. Something to the extent that the authorization as 
proposed by the administration basically or substantially, I 
think was the word, deals with our campaign as we have 
presently devised it. Is that a fair statement?
    General Dempsey. That is a fair statement, Senator.
    Senator Menendez. Does it also deal with a campaign that 
may alter more than you have presently devised it?
    General Dempsey. It deals with the campaign as presently 
designed, and has statements in there--I do not know which part 
of it you might be reacting to.
    Senator Menendez. Well, let me perfect my question. If, in 
fact, your campaign as presently designed needs to morph, 
change, to the realities of what is happening, do you believe 
the authorization will allow you to do that?
    General Dempsey. Yes, I do, and that is because as most of 
us who have both studied and served against these kind of 
threats over the past now almost 14 years, we believe that the 
primary way you defeat these groups is by, with, and through 
partners in the region, and through sustainment of a broad 
coalition. And that the U.S. Forces involved should principally 
be enabling, not necessarily leading the effort, although the 
AUMF does provide----well, first of all, I will always go back 
to the Commander in Chief through Secretary of Defense and 
recommend whatever I think is necessary to accomplish the task. 
But as I presently conceive--as we presently conceive of this 
threat and how to defeat it, this AUMF is adequate to the task.
    Senator Menendez. Well, and I appreciate that answer 
because it underlies the challenge that members of the 
committee have in getting to the right point, to support the 
President, this and any future one, to degrade and defeat ISIL, 
and at the same time not to provide the open-endedness so that 
if, in fact, it meets your present criteria, but you believe it 
has the wherewithal to meet a future criteria that may morph, 
that is the essence of the challenge.
    And so, last week before the Armed Services Committee, 
General Dempsey, you, in response to questions, said that your 
view of what no enduring offensive combat operations would mean 
would be mission specific. Is that fair to say?
    General Dempsey. Yes, and I also said that it was--it not a 
doctrinal term. There is no word ``enduring'' in military 
doctrine, but it is a statement of the Commander in Chief's 
intent.
    Senator Menendez. Right. And we all know that it may be the 
intent of someone not to have any large-scale or long-term 
offensive combat troops, but that intention can honestly change 
along the way. And so, that is part of our challenge here.
    General Allen testified before this committee last week 
when we asked him what does no enduring offensive combat 
operations means to you, and he said, well, that could mean as 
long as 2 weeks or 2 years. And considering his experience, it 
was not an insignificant statement. So, Secretary Carter, what 
does it mean to you as ultimately the Secretary of Defense who 
oversees all of the armed forces under your Department, of 
course under the President's command? What does ``no enduring 
offensive combat operations'' mean to you?
    Secretary Carter. There are two ingredients to this, the 
how and the when. And the AUMF as proposed is, as I noted, 
provides for a wide range of activities to defeat ISIL, but it 
has one significant limitation, which is the one you referred 
to, which essentially it does not authorize the kind of 
campaign that we conducted in Iraq and Afghanistan. That is not 
what we foresee as necessary for the defeat of ISIL, so it 
meets my objective of having necessary flexibility, but there 
is that limitation. That is what is written in, and that is 
what the meaning of those words is.
    As regards to the 3-year limit, as I indicated, that is not 
based on an assessment of how long the campaign will take. That 
is based upon how our system works here at home, and it does 
not have anything to----
    Senator Menendez. And I appreciate that, and that is what 
we did in our authorization. But even without an Iraq or 
Afghanistan-sized commitment still can commit thousands of 
troops for a long period of time, and so it may not be the size 
of Afghanistan or Iraq. So that is part of our challenge.
    Two very quick final questions. Secretary Kerry, one of the 
criticisms of the President's proposed AUMF is that it does not 
make clear that it is, in fact, this AUMF and not the 2001 AUMF 
that governs this conflict. If we passed an ISIL-specific AUMF, 
would the administration have any objection to specifically 
saying that the ISIL AUMF supersedes any preceding 
authorization for the use of military force in this engagement?
    Secretary Kerry. Senator, only if it was absolutely clear 
that there was no limitation whatsoever with respect to the 
other activities authorized by the 2001 AUMF, because that is 
the principal authorization with respect to al-Qaeda and other 
efforts. So the President has made it clear that if the 
Congress passes an authorization specifically, that is what he 
will rely on with respect to ISIS.
    Senator Menendez. And if that is the case, there is no 
reason not to have language that says that this is only an 
authorization.
    Secretary Kerry. As long as it is clear that----
    Senator Menendez. ISIS specific.
    Secretary Kerry. As long as it is clear it does not reach 
any of the other activities authorized by the 2001, correct.
    Senator Menendez. Finally, Secretary Carter, over the 
weekend, Boko Haram in Nigeria declared its allegiance to ISIL. 
Would Boko Haram be considered a legitimate target under the 
language of the President's proposed authorization?
    Secretary Carter. The language of the proposed 
authorization anticipates, as I indicated, the possibility of 
other groups aligned with ISIL. And what the text means is that 
the AUMF would cover such groups that associate with or fight 
alongside if they also have the intent of threatening 
Americans. So both of those tests would be applied under the 
proposed AUMF by----
    Senator Menendez. Just saying that with what you have--
swearing allegiance will be enough then.
    Secretary Carter. No, it is not enough. It also has to be a 
threat to Americans.
    Senator Menendez. Okay.
    Secretary Carter. That is what the language says. It is 
says ``associated with,'' et cetera, ISIL and threatening 
Americans.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Rubio.
    Senator Rubio. Thank you. At the outset, I want to thank 
you all as well for recognizing what happened this morning--
last night in my home State of Florida. It is a reminder that 
the dangers to our service men and women face is not just when 
they are deployed, but it is inherently dangerous work even in 
their training. And so, our thoughts and prayers go out to 
them, and to their families, and loved ones.
    Secretary Carter, I wanted to begin by asking you about 
Iran. Iran's goal is to become the regional--most dominant 
regional power. Is that accurate?
    Secretary Carter. I am sorry, Iran's?
    Senator Rubio. Iran's goal is to become the regional 
hegemony----
    Secretary Carter. Probably true, yes.
    Senator Rubio. And in that realm, they see American 
military presence in the region as a threat or an impediment to 
that goal, correct?
    Secretary Carter. Probably to the achievement of some of 
their goals, yes.
    Senator Rubio. And certainly they are never excited to see 
additional American troops present anywhere in the Middle East. 
That is a fair statement.
    Secretary Carter. I cannot tell what excites them. I cannot 
imagine that our bombing ISIL is unwelcome to them, but I do 
not know that because I do not know what they are thinking.
    Senator Rubio. Well, bombing ISIL is unwelcome to them. 
General Dempsey, you agree the Iranians are not fans of U.S. 
military presence in the Middle East.
    General Dempsey. I think they have the same suspicion about 
us that we have of them.
    Senator Rubio. But in general, they are not--when they see 
us in the region, they are not necessarily fans of U.S. 
military deployments anywhere in the Middle East.
    General Dempsey. No, I would not think so.
    Senator Rubio. Okay. Well, that is why I want to turn to 
you, Secretary Kerry. I believe that much of our strategy with 
regards to ISIS is being driven by a desire not to upset Iran 
so that they do not want walk away from the negotiating table 
on the deal that you are working on. Tell me why I am wrong.
    Secretary Kerry. Because the facts completely contradict 
that, but I am not at liberty to discuss all of them here for a 
lot of different reasons. In a classified session I could, but 
at this delicate stage of the negotiations, I am not sure that 
is advisable.
    Senator Rubio. So are you----
    Secretary Kerry. The fact is, let me just----
    Senator Rubio. Well, but for the record, can you state that 
Iran's feelings about our military presence in the region and 
the fact that they would be upset if we increase military 
personnel on the ground----
    Secretary Kerry. Senator, let me----
    Senator Rubio [continuing]. Would increase--targeting, for 
example, Assad and Syria. Could you tell me today that under no 
circumstances is how Iran would react to an increase of U.S. 
military action against ISIS, because as we heard from 
Secretary Carter, they are not fans of us bombing ISIS because 
it involves our presence in the region. Are you telling me that 
that is a nonfactor in terms of how it would impact the 
negotiations, or is that something you cannot discuss in this 
setting?
    Secretary Kerry. They would welcome our bombing 
additionally ISIS actually. They want us to destroy ISIS. They 
want to destroy ISIS. ISIS is a threat to them. It is a threat 
to the region. And I think you are misreading it if you think 
that there is not a mutual interest with respect to Daesh 
between every country in the region.
    Senator Rubio. So they are supportive of more ground--if 
the U.S. sent more military personnel into Iraq as trainers, 
advisers, logistical support, they would support that? Iran 
would support that?
    Secretary Kerry. Well, they are not going to come out and 
openly support it, and they obviously would be nervous about 
it, but they are not going to object if that it is what it is. 
But the point is you have bigger problems than that with that 
particular scenario because the Shia militia within Iran might 
have something to say about it. Mukhtar Al Sadr, and Hadi al-
Amiri, other people might obviously react very adversely to 
that.
    But what is important, Senator, with respect to your 
question is to understand this, and I think this has been 
misread by a lot of people up here on the Hill to be honest 
with you. There is no grand bargain being discussed here in the 
context of this negotiation. This is about a nuclear weapon 
potential. That is it. And the President has made it completely 
clear they will not get a nuclear weapon.
    Now, the presumption by a lot of people up on the Hill here 
has been that we somehow are not aware of that goal even as we 
negotiate that goal. Our negotiation is calculated to make sure 
they cannot get a nuclear weapon, and it is really almost 
insulting that the presumption here is that we are going to 
negotiate something that allows them to get a nuclear weapon.
    Senator Rubio. Well, I have not discussed about the nuclear 
weapon. What I have--and I am not saying there is a grand 
bargain. What I am saying is that I believe that our military 
strategy towards ISIS is influenced by our desire not to cross 
red lines that the Iranians have about U.S. military presence 
in the region.
    Secretary Kerry. Not in the least, no. Absolutely not in 
the least.
    Senator Rubio. Okay.
    Secretary Kerry. There is no consideration whatsoever as to 
how they or anybody else feels. We will do what is necessary in 
conjunction with our coalition--remember we have 62 countries, 
including five----
    Senator Rubio. Okay. Well, I want to talk about the 
coalition.
    Secretary Kerry [continuing]. Five Sunni countries that for 
the first time ever are engaged in military action in another 
country in the region.
    Senator Rubio. And I want to touch on that point because 
General Dempsey a moment ago outlined the need to have a broad 
coalition, and I imagine it involves these Sunni countries, for 
example, the Jordanians, the Saudis, the UAE, and others. These 
are also countries, by the way, that are deeply concerned about 
Iran, and they feel--is it not right that they feel that we 
have kept them in the dark about our negotiations with Iran? In 
essence, the way we have proceeded with our negotiations in 
Iran have impacted our trust level with these critical allies 
in this coalition? Is that accurate?
    Secretary Kerry. Senator, that actually is flat wrong also. 
Flat wrong.
    Senator Rubio. They said so----
    Secretary Kerry. Just it is flat wrong. I just came back 
from a meeting in the Gulf in Riyadh. I met with King Salman, 
who completely supported what we are doing. I met with all of 
the GCC members. They all sat around the table, and they all 
articulated their support for what we are doing, and they 
believe we are better off trying to prevent them from getting a 
bomb diplomatically first, providing, of course, that it 
actually prevents them from getting that bomb. That is the test 
of this. And a whole bunch of people are trying to give this a 
grade before the test has even been taken.
    Senator Rubio. So you are saying here today that our allies 
in the region, our Sunni allies, the Saudis, the UAE, the 
Egyptians, and others, are perfectly comfortable with where the 
negotiations stand at this moment.
    Secretary Kerry. I did not say that. I did not say that. 
They are not perfectly comfortable. They are nervous. They are 
apprehensive. Of course they are. They want to make sure that, 
in fact, just as Members of Congress want to make sure, that 
the deal that is struck, if one can be struck now, will, in 
fact, prevent them from getting a weapon.
    Senator Rubio. Have you shared with them the details of 
where it stands right now?
    Secretary Kerry. We have shared considerable details with 
them, absolutely.
    Senator Rubio. And are they apprehensive about that, or are 
they comfortable with what you shared with them?
    Secretary Kerry. They are comfortable with what we shared 
with them, and Saud al-Faisal, the senior Foreign Minister in 
the world, I might add, publicly sat with me at a press 
conference in which he articulated their support for what we 
are doing.
    Senator Rubio. Okay. General Dempsey, I want to ask you 
because we talked about this a moment ago. Part of what is 
happening here is a second concentric circle that ISIS is 
pursuing beyond its core in Syria and Iraq, and we have seen 
that emerge in Libya. We are starting to signs of it emerge in 
Afghanistan. First, if you can comment about what ISIS, or if 
any of you could comment, about what we are seeing with ISIS 
with regard to the competition between them, and al-Qaeda, and 
the Taliban to absorb groups in Afghanistan. And second, how 
does this AUMF that is proposed before us today allow us to 
form a strategy that allows us to deal with that second ring of 
threats of ISIS absorbing other groups in the region?
    General Dempsey. The TTP is notably that splinter group of 
the Taliban, who has rebranded themselves to the ISIL ideology. 
And the--to answer your question on the AUMF, the AUMF would 
give me the authority to make recommendations to the Commander 
in Chief how to deal with ISIL wherever it shows up if the two 
conditions that the SecDef mentioned exists, number one, that 
they have affiliated themselves with the ideology, but number 
two, that they demonstrate an intent to threaten U.S. interests 
either regionally or globally.
    Senator Rubio. And just my last point here. In Afghanistan, 
we still have a significant presence of service men and women 
among other Americans, and much more so than in other parts of 
the world where they are now getting groups to align 
themselves. The growth of an ISIS affiliate and/or pledged 
group in Afghanistan could potentially pose a significant 
threat to American personnel in Afghanistan potentially.
    General Dempsey. It will initially pose a threat to the 
government of Afghanistan, and could over time pose a threat to 
us.
    The Chairman. Senator Cardin.
    Senator Cardin. Well, thank you very much, Mr. Chairman, 
and I thank the three of you for your incredible service to our 
country. We very much appreciate it during this extremely 
challenging time.
    First, let me say I supported the use of force resolution 
that was reported from this committee in the last Congress, as 
did every Democrat. And as I was listening to Secretary Carter 
explain the objectives of and authorization for the use of 
military force and thought about what we have recommended, it 
satisfied, I think, every one of your concerns.
    And I was somewhat surprised because I think some 
Republicans were reluctant to support a use of force in the 
last Congress because the administration had not come forward 
with a request. In fact, that was said by many of my Republican 
colleagues. So I was somewhat surprised that the administration 
did not bring a resolution that was more consistent with what 
we developed in the last Congress, and would have accomplished 
every one of the objectives that Secretary Carter pointed out.
    So let me bring up three concerns in the time I have. Some 
have already been raised, but I will try to get through as much 
of this as possible. First, dealing with the 2001 authorization 
and why there is nothing included in your request that deals 
with the 2001 authorization. Secondly, to deal with the 
interpretation of ``enduring offensive ground combat 
operations.'' And third, how you will determine associated 
forces. All three give me concern.
    In regards to the 2001 authorization, as it has been 
pointed out, that was an authorization passed rather easily by 
Congress to go after those that were responsible for the attack 
of our country on September 11, 2001. That is what the 
resolution says. I think many of us are surprised that that 
authorization could be used today against ISIS in Syria.
    The 2001 authorization is now the longest running use of 
force in American history, 4 years longer than the Vietnam War, 
8 years longer than the Revolutionary War, 10 years longer than 
World War II. About one-third of the authorizations for use of 
military force passed by Congress have included limitations of 
time, so that is not an unusual provision to be placed in a 
resolution. As Secretary Carter pointed out, the circumstances 
can change and it is important that Congress and the 
administration speak with a united voice.
    And, Secretary Carter, I was very impressed by your 
comments about the constitutional responsibilities between 
Congress and the administration, and you fully understand a 3-
year sunset on the ISIS-specific authorization for the use of 
force. And quoting from your statement, ``To me, this is a 
sensible and principled provision of the AUMF, even though I 
cannot assure that the counter-ISIL campaign will be completed 
in 3 years.''
    So Senator Murphy and I have introduced a bill that would 
limit the 2001 authorization to the same 3-year provision that 
you have in the ISIS-specific resolution. And if Congress 
choses to include a 3-year sunset on the 2001 authorization, 
would it be your view that that would be a sensible and 
principled provision for Congress to include, even though you 
could not assure that the military operation against those 
responsible for the attack on our country on September 11, 2001 
can be completed in that time, that it would be up to the next 
administration to come back, as it would in the ISIS campaign?
    Secretary Carter. Senator, thank you for that. I cannot 
give you a clear answer to that question, and let me say why. 
The 2001 authorization on the use of military force covered al-
Qaeda and its successive generations, which have now extended 
for 14 years. There is still an al-Qaeda in the Arabian 
Peninsula. They call themselves that, and they intend to attack 
this country, and we need to protect ourselves. And we need the 
authority to protect ourselves.
    Senator Cardin. Is that not also true of ISIS?
    Secretary Carter. Well, there is a difference. There is now 
a 14-year history of the tenacity of al-Qaeda and its offshoots 
and their intent to attack our country. And I think you have to 
take that into account about whether it makes sense to put a 
sunset on that one. This one that we are embarking on with ISIL 
is a new campaign, a new group.
    And so, as I said in my statement, I respect the desire to 
have a sunset clause that does not derive from any 
characteristic of the campaign that I know of yet that would 
predict that it will wrap up within 3 years. But I think we 
have history in the case of al-Qaeda that it has endured--it 
has lasted quite a long time. And I think that ought to inform 
whether a sunset for the authorities contained in the AUMF 
makes sense.
    Senator Cardin. Mr. Secretary, if this is a new campaign, I 
do not understand how you can use a 2001 authorization to 
justify the use of force. I think you cannot have it both ways. 
So I do not understand the distinction there when you are 
saying it is a new campaign, we do not know what is going on, 
and yet we still can use a 2001 authorization that was specific 
against the attack on our country.
    Secretary Carter. Well, I think maybe another way of 
getting at your question, Senator, is the President has 
indicated a desire and a willingness to revisit the 2001----
    Senator Cardin. And we are trying to help that along.
    Secretary Carter [continuing]. AUMF, which I also think 
makes sense in view of what you have said. It has been 14 
years. The only thing that I would say, and the only reason I 
am hesitating here is that we have to protect ourselves against 
al-Qaeda and its successors.
    Senator Cardin. And the Congress----
    Secretary Carter. Those guys are still out there 14 years 
after 9/11.
    Senator Cardin. And our Congress will meet again and can 
always take up, as they will, I assume, if this resolution was 
passed in the next Congress with the next administration. I 
want to just get one more question in on the enduring offensive 
ground combat troops. I looked at my app on my phone here to 
get a definition of what ``enduring'' is, and it came up as 
``lasting, permanent.''
    So would you tell me why the term ``enduring offensive 
ground combat operations'' could not be interpreted to include 
operations such as our military operations in Iraq and 
Afghanistan since we did not intend our troops to be there on a 
permanent basis, that instead we were liberating, we were not 
offensive? Why could you or the administration not interpret 
that language to include a ground campaign similar to what we 
saw in Iraq?
    Secretary Carter. I will let Senator Kerry. I am not a 
lawyer, but the interpretation that I gave to that phrase is 
the interpretation that those who drafted the AUMF make of it. 
And it is intended in the first instance clearly to rule out 
the kind of campaign we waged in Iraq and Afghanistan because 
we do not foresee that kind of campaign as necessary. And that 
is one of the things that those words are supposed to cover. 
Let me ask Secretary Kerry to add to that.
    Secretary Kerry. Well, I think the President, Senator, has 
been particularly clear about this. And there is a huge 
distinction between the kinds of operations that were conducted 
in Afghanistan and Iraq where clearly we committed a very 
significant number of troops for a long period of time to 
offensive actions on the ground. The President has ruled that 
out, and what he has done is, I think, offered you confining 
definitions that provide the limitations here. And I think the 
English language provides them also frankly.
    I do not happen to agree with General Allen's comment here 
about 2 weeks to 2 years. I do not think anybody contemplates 
years or a year. That is not in the thinking of the President 
nor any of the considerations he has said. What he has thought 
of only, and what General Dempsey has been particularly clear 
about it, is not giving up the option under some particular 
circumstances where you might want somebody on a special forces 
nature or embedded nature somehow to be accompanying people, to 
be assisting in some way.
    I do not want to go into all the parameters of that, but I 
think it has been very clear how limited it is, or an effort to 
protect or defend U.S. personnel or citizens, which is 
momentary, an effort to rescue people in some particular 
instance. Perhaps a specific targeted operation against Daesh 
leadership for instance. Perhaps intelligence collection and 
sharing.
    I mean, there is a range that has been laid out, but the 
whole purpose here is to kind of have a concept that is well 
understood that is extremely limited, but not so limiting that 
our military cannot do what it needs to do in some situations 
to protect America's interests or American personnel. But it is 
not contemplating years, not even months to my knowledge. What 
it would contemplate is some current operation along the lines 
that I just described.
    Senator Cardin. I would just point out that the language we 
used in 2001--I think most of us would not have thought it 
would be used today. This authorization goes to the next 
administration, so the next administration would have the 
authority and may have a totally different view on that.
    Secretary Kerry. It may indeed, Senator, which is precisely 
why President Obama said I am going to put it in the 3-year 
range, and he specifically thought that through. He said, you 
know, I do not want the new President to come in and face the 
kind of choice that I faced on my desk day one, which had to be 
made within 30 days with respect to Afghanistan. So he gave it 
the distance of the year to allow the administration to get its 
people in place, to evaluate and make a decision.
    But most importantly, this is where there is a broadly 
accepted and absolutely clear congressional responsibility. 
Congress will step in. You will have the authority. I mean, I 
would think you would be welcoming this opportunity to double 
check the next administration, to be able to make sure this is 
accomplishing the precise goals you want. In fact, you know, I 
would think it would be undebated by Congress in that respect, 
although I understand there are principles where people say, 
you know, we do not want any limitations at all.
    But this certainly fits within the capacity to get a major 
vote out of Congress. And may I say to everybody, you know, 
that is something else you have got to think about here. When I 
testified in December and when I testified 2 weeks ago, I think 
I made it clear that our interests are best served if there is 
a very powerful vote in support of this. We do not have a 
message of America's commitment and of our willingness to stay 
at it and get the job done if this is, you know, a marginal 
vote in the Congress.
    The Chairman. Thank you. We do welcome this opportunity--we 
also welcome the opportunity to weigh in on any final Iran deal 
and look forward to that. And with that, Senator Johnson.
    Senator Johnson. Words matter, and I know we are here 
really discussing specific language on authorization for the 
use of military force, but this is puzzling. Secretary Kerry, 
you said this authorization needs to be extremely limited, but 
show the commitment of the United States. I do not see how you 
reconcile those two terms. There have been an awful lot of 
loose statements here.
    Let us talk about the joint resolution passed on September 
18, 2001, and why the current activity is tenuously connected 
to that at best. That joint resolution was to authorize the use 
of the United States Armed Forces against those responsible for 
the recent attacks launched against the United States 
specifically. It said that ``The President is authorized to use 
all necessary and appropriate force against those nations, 
organizations, or persons he determines planned, authorized, 
committed, or aided the terrorist attacks that occurred on 
September 11, 2001, or harbored such organizations or persons 
in order to prevent any future attacks of international 
terrorism against the United States by such nations, 
organizations, or persons.'' I did not hear anything about 
successor organizations.
    So, again, I am puzzled by the fact that the administration 
is firmly of the view that they already have statutory 
authority to conduct what they are conducting, and I guess 
there is really nobody pushing back that hard on that. But now 
we are talking about a new authorization, and I am puzzled by 
the fact that any Commander in Chief, if they already believe 
they have the authority to do what is being conducted, why they 
would want to limit that in any way, shape, or form, 
particularly when, Secretary Kerry, you said you want to dispel 
any doubt, and send an unmistakable message.
    Let me just read two other authorizations. This is the 
authorization we are discussing because we are talking about 
it, but let us talk about the specific words. It says ``The 
President is authorized, subject to the limitations in 
Subsection (c), to use the Armed Forces of the United States as 
the President determines to be necessary and appropriate 
against ISIL or associated persons or forces as defined in 
Section 5.'' Man, this sounds like a contract. (C), 
limitations. ``The authority granted in Subsection (a) does not 
authorize the use of United States Armed Forces in enduring 
offensive ground combat operations.'' Okay, that is not a real 
dispelling of doubt. Duration of, ``this authorization for the 
use of military force shall terminate three years after the 
date of the enactment of this joint resolution, unless 
reauthorized.'' I do not know. I am not seeing that sending an 
unmistakable message.
    Let me read you one other authorization. This was passed on 
December 8, 1941. ``The President is hereby authorized and 
directed to employ the entire naval and military force of the 
United States and the resources of the Government to carry on 
war against the Imperial Government of Japan; and, to bring the 
conflict to a successful termination, all of the resources of 
the country are hereby pledged by the Congress of the United 
States.''
    Now, if we are discussing language to dispel all doubt, to 
send an unmistakable message, General Dempsey, which 
authorization, as a military man, would you want to have at 
your back?
    General Dempsey. Senator, I am not going to compare 
something from 1941, which is a state-on-state global conflict, 
to a conflict with a non-state actor. I was consulted on this 
AUMF.
    Senator Johnson. Secretary Carter, it has always puzzled me 
why anybody would want to pick a fight with the United States. 
Why is ISIS putting out on videotape the barbaric beheadings of 
Americans and of other Westerners? Why would they do that? Why 
would anybody want to pick a fight with the United States?
    Secretary Carter. Senator, I can only say and read as you 
can hear and read what they say, which is that they intend to 
create an Islamic state, and they regard us and our friends and 
allies as standing in the way of that. And, therefore, they 
have shown their willingness to attack Americans and attack our 
allies and interests.
    Senator Johnson. But, again, I would never pick a fight 
with Chairman Dempsey's military. So the only way I would pick 
that fight is----
    Secretary Carter. Well, as I think I said in my statement, 
we will defeat them.
    Senator Johnson. The only way I would pick that fight is if 
I really did not think America would be serious about coming 
back to defeat me, to try and accomplish that goal that 
President Obama established.
    I do want to talk a little bit about the current ground 
forces allied against ISIS. General Dempsey, do we know 
basically what the force structure is? How many Iraqi Security 
Forces are there? How many Kurds? How many in the Shia militias 
sponsored by Iran? What is the current force structure of boots 
on the ground?
    General Dempsey. I have to get back to you for the record 
on the exact number, Senator.

[Editor's note.--The information supplied to Senator Johnson 
was classified.]

    Senator Johnson. Well, I am happy to get ballpark figures.
    General Dempsey. Okay. Well, let us talk about the Tikrit 
operation for example. There are approximately a thousand Sunni 
tribal folks. There is one brigade of the Iraqi Security 
Forces, which numbers approximately 3,000, a couple hundred of 
their CTS, their counterterrorist service. Those are the MOD-
sponsored forces. And there are approximately 20,000 of the 
popular mobilization forces, which are the Shia militia.
    Senator Johnson. So the Shia militia dramatically outnumber 
the Iraqi Security Forces in this?
    General Dempsey. They do.
    Senator Johnson. And the Shia militias are pretty much 
Iranian-sponsored, correct?
    General Dempsey. I would describe them as Iranian trained 
and somewhat Iranian equipped.
    Senator Johnson. Secretary Carter, I think you said that 
the outcome of Tikrit will explain an awful lot of things. What 
did you mean by that?
    Secretary Carter. I believe it was General Dempsey who made 
that statement, so I will let him explain it himself, but I 
agree with it.
    General Dempsey. What did I mean by that? [Laughter]
    Here is what I meant by that, Senator. There is no doubt 
that the combination of the popular mobilization forces and the 
Iraqi Security Forces, they are going to run ISIL out of 
Tikrit. The question is what comes after in terms of their 
willingness to let Sunni families move back into their 
neighborhoods, whether they work to restore the basic services 
that are going to be necessary, or whether it results in 
atrocities and retribution. That is what I meant.
    Senator Johnson. Well, Senator Rubio's line of questioning 
was laying out our concern that if it is Iran that is at the 
tip of the spear here, if they are the one sponsoring the 
victories, they are going to have influence in Iraq, then that 
is going to be very difficult, very tenuous, very dangerous for 
the regional peace, correct? Secretary Kerry, do you want to 
address that one? Are you not concerned about Iran's growing 
influence in Iraq?
    Secretary Kerry. I am concerned about Iran's growing 
efforts in the region, and we have made it very clear that it 
is an administration concern, their influence in Yemen, their 
influence in Beirut and Lebanon, their influence in Syria, in 
Damascus, and Hezbollah, and of course their influence in Iraq. 
But I think you have to look historic--I mean, a lot of things 
are happening in the region, to be honest with you. And the 
history between Persian Shia and the Arab world and Arab Shia 
is complicated.
    Remember, Iraq and Iran had a 10-year--8 to 10-year war. 
People were gassed. Iranians did not respond with gas. There 
were a lot of sort of interesting facets of how that played 
out. And, yes, Iran's influence has spread at this moment, and 
we are deeply concerned about it. But if you are concerned 
about it now, think of what happens, and I hear this--we heard 
on the floor of the House recently, and you hear it elsewhere--
if they had a nuclear weapon and they were doing that.
    That is why this administration believes the first step is 
to prevent the access to the nuclear weapon or prevent their 
ability to develop a nuclear weapon, and that is our goal, 
first to try to do that diplomatically. And if it cannot be 
achieved diplomatically, then we all have a lot of options 
available to us, but we are eyes wide open with respect to what 
is happening.
    And all of those issues, we have made it clear to our 
friends in the region, and elsewhere in the world, they do not 
disappear. If we were to get an agreement to stop them from 
getting a nuclear weapon--and we are all satisfied that that, 
in fact, will be the conclusion--we still have all these other 
issues with Iran, and we all need to be working on the ways in 
which, and this is exactly what we are doing. GCC members, in 
fact, will be coming here to Washington in the next month to 
continue the dialogue we had in the region last week. And I am 
confident that we will, all of us together, take the steps 
necessary to counter what Iran is doing in other ways.
    Senator Johnson. My final point quickly is I am not seeing 
the full commitment out of this administration, and as a 
result, we are seeing the growing influence and very dangerous 
influence of Iran. Thank you, Mr. Chairman.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman, and thank you to 
the witnesses. We are now in the 8th month of a war that began 
on the 8th of August. There has not been a congressional 
authorization of the war, except for the Foreign Relations 
Committee vote in December. No committee has taken it up. There 
has been no floor debate. And I view that as highly, highly 
challenging and disturbing in terms of the way the Nation makes 
the most grave decision we are supposed to make.
    I do agree completely this authorization is needed. Count 
me among many Members of Congress and others who believe that 
both the 2001 and 2002 authorizations are not sufficient to 
cover this military action. If, however, we act to authorize 
it, there is precedent for congressional authorizations after 
the beginning of military conflicts. There is that precedent. 
But if we do not act to authorize it, I think from a legal and 
precedential standpoint, it would be somewhat catastrophic.
    I also agree completely with the testimony of the witnesses 
that the authorization should be strong and it should be 
bipartisan for those who are fighting this battle, who have 
been fighting it without Congress weighing in to indicate 
whether they think it is in the national interest or not. I 
cannot imagine asking people to risk their lives with us not 
having done our job, and if we were to pass it in a narrow way 
or a partisan way that would not send a message that would make 
people who risking their lives feel very good about the risk 
that they are taking.
    I want to talk about the ground troop provision from a 
definitional standpoint, from a mission standpoint. The 
language, ``no enduring offensive ground combat operations,'' 
is in the proposed authorization, and it is given some tone and 
coloration by the President's transmittal letter. The 
President's transmittal letter says, ``My administration's 
draft AUMF would not authorize long-term, large-scale ground 
combat operations like those our Nation conducted in Iraq and 
Afghanistan.'' And you have used that as sort of a limitation, 
``not like Iraq or Afghanistan.''
    Let me ask you this. In the first gulf war, 697,000 
American troops were deployed overseas for up to 7 months. 
Would that be an enduring ground combat operation under this 
definition?
    Secretary Carter. Senator, I think an operation that large, 
a state-on-state operation is not something that we foresee as 
the kind of campaign we would mount against ISIL and not 
foreseen by this AUMF. If I can just say, the fundamental 
nature of this campaign, and General Dempsey made this clear, 
is one in which, and Secretary Kerry also, in which we are 
seeking the lasting defeat of ISIL. To get a lasting defeat of 
ISIL, we need to have somebody on the ground who sustains the 
victory after the ISIL forces are defeated. That is why we are 
relying--that is why our fight is basically an enabling fight.
    Senator Kaine. And, Secretary Carter----
    Secretary Carter. And we are trying to develop the ground 
forces that would do it. It is very different from the Iraq and 
Iran--the U.S. assault on----
    Senator Kaine. I want to ask you about that very point, but 
I am trying to figure out is there some meaning to this 
definition that we could apply to say, no, this is not 
contemplated. That is what I would like to ask General Dempsey 
and Secretary Kerry. Six hundred and ninety-seven thousand 
American troops for 7 months, is that an enduring ground combat 
operation?
    General Dempsey. That is not contemplated, to use the words 
you--the way you characterize them, and it would not lead to 
the defeat of ISIL. And so, I can say with credibility, no.
    Senator Kaine. That that would not be allowed under this 
language.
    General Dempsey. That is correct.
    Senator Kaine. Secretary Kerry.
    Secretary Kerry. I agree.
    Senator Kaine. It would not be allowed under this language. 
With respect to the concept that Secretary Carter raised, and I 
have raised this with some of you before, the Foreign Relations 
Committee has had two meetings recently with some of our very 
strong allies in this mission, King Abdullah of Jordan and 
Sheikh Tamim, the Emir of Qatar. Qatar is the location of the 
current combined air operations center at al-Waleed Air Force 
Base.
    The King of Jordan said, ``this is not your fight, it is 
our fight,'' when we were asking about the ground troops. 
``This is not your fight, it is our fight. ISIL is born and 
bred in this region. It is a terrorist threat that is born and 
bred in this region. They are claiming the mantle of a religion 
that we revere and they are perverting it for a horrible 
perverted end, so it is not America's fight. We want your help, 
but we have to be all in in battling this ourselves.''
    Sheikh Tamim was even a little clearer when he said, ``We 
do not want American ground troops. We do not want American 
ground troops because it could send the message that this is 
the United States against ISIL, or this is the West against 
ISIL, which could be a recruiting bonanza for ISIL. This needs 
to be our battle, our ground effort, and we appreciate your 
support on the airstrike side.''
    So I am looking for metrics in terms of if we all agree 
with the proposition that this needs to be a region policing 
itself with the assistance of the United States, and tell me 
what that means with respect to what ground troops levels could 
be appropriate or inappropriate. I mean, just as an example, on 
the airstrike campaign, of the 2,800 airstrikes, the United 
States has done 80 percent of the airstrikes. The airstrikes is 
the not in the region with the United States helping a little 
bit. We have done 80 percent of the airstrikes.
    So what I am worried about with respect to the ground 
troops is less the words, but the concept, and, Secretary 
Carter, you were getting at it. This has got to be the region's 
fight against its own terrorism. If they are willing to be all 
in, then we should help. But if it gets to the point where we 
have to contemplate a significant number of ground troops, it 
almost means that it has been lost from the beginning. If the 
region will not weigh in to battle their own terrorist threat, 
there is no amount of ground troops we could put in to Iraq or 
Syria to win the battles there. We can keep Americans safe 
here, but we cannot create a recruiting bonanza for ISIL.
    So talk to me a little bit about--I understand because the 
President said in his letter how he would like to use ground 
troops, and I would rather have an authorization that said 
that. But I see a real danger of a ground troop creep here 
converting this into not the region policing its own terrorism, 
but like the airstrike campaign that is 80 percent U.S. It is a 
U.S. mission, and I would love your thoughts about how we guard 
against that, both as a mission matter and as a matter of 
thinking about how to potentially give them some flesh in the 
definition.
    Secretary Kerry. Well, Senator, I think that everything the 
President has said, I think this authorization itself in its 
current form guards against that. But the most significant 
guard against that is what King Abdullah said and I think 
General Dempsey, and Secretary Carter, and all of our belief 
that, you know, the enduring transformation that has to take 
place here is not going to take place if the United States just 
comes in and we knock out ISIL and that is it, go away. It is 
not going to happen. We could do that actually. We have that 
capacity. But we are not asking to do that, nor are they asking 
us to do that because I think they understand that the 
implications of that would be actually to aid in the 
recruitment to create a bigger problem than we face today.
    And in answer to the question that was asked earlier, why 
does--why do these guys like taking us on to some degree, 
because if it is just us, that is how they grow, and that is 
what they want, and we are not getting suckered into that. That 
is why we built the 62-member coalition. That is why we worked 
so hard to get these five Arab countries engaged in the kinetic 
activities with us. It is precisely to deny them that 
narrative.
    And so, as we go forward here, we think the best thing that 
can happen is what is happening now. This is, in fact, you 
know, indigenous. It is springing up. The Sunni are gaining 
confidence in Anbar. There are several battles taking place 
right now, in fact, not just in Tikrit. There are two others, 
two out of three where, in fact, we are playing a central role 
in the other two. It has not been as heralded, but it is making 
a difference, and the Sunni are prosecuting that.
    So as long as we continue to work on the integration, the 
internal inclusivity of Iraq and its government, as long as we 
continue to help the Iraqis to be able to do this themselves, 
help the region to feel empowered by it, that is a long-term 
recipe for the United States not to have as much risk and not 
to have to put ourselves on the line in the way we have 
historically. So we think we are on the right track here. And, 
in fact, the very strategy we are pursuing adheres to the very 
standards that you most want to have in place in order to 
protect against the mission creep.
    Senator Kaine. Thank you, Mr. Chairman.
    The Chairman. Senator Flake.
    Senator Flake. Thank you, Mr. Chairman, and thank you for 
the testimony. This committee had asked, particularly the 
chairman. The committee had asked months and months ago for 
AUMF language to come from the administration. We are glad that 
it is here. I think that it is overdue. I think it would have 
been useful to have that language or some kind of language from 
the administration early on. I know that the administration was 
uncomfortable with the language that was passed by this 
committee in December. I think many of us were uncomfortable 
with the limitations that were there.
    But I think at the same time, we all recognize that we may 
have to endure some degree of ambiguity in the language, and we 
are seeing it expressed or manifested here when we talk about 
what would be considered or what would not in exchange for a 
resolution that can pass with a bipartisan majority. And that 
is what I want to just explore for a minute, is at what point 
does it become--since the administration believes that you have 
the legal authority to move under the AUMF, at what point does 
it become not useful to have an AUMF that would be passed 
simply with a partisan vote, for example? Would that not be 
useful? Is that worse than no AUMF at all? Secretary Kerry?
    Secretary Kerry. Well, is that worse than no AUMF now? 
Absolutely. I mean, look, we are convinced we have the 
authority. That is not the issue here, and Senator Johnson 
asked about that earlier. I mean, we have the authority because 
ISIL was al-Qaeda. What they changed was their name, and then 
grew worse. But for years, I think it was about 13 years, 
somewhere in that vicinity, going back to 2011, it called 
itself Al Qaeda in Iraq. That is who they were, Al Qaeda in 
Iraq.
    And they have an extensive history of conducting attacks 
against the U.S. coalition going way back during that period of 
time. They have had a long relationship between al-Qaeda and 
Osama bin Laden. They viewed themselves, and still do actually, 
as the legitimate heirs of the Osama bin Laden mantle. They 
still view that. They just see themselves in a more aggressive 
term, and that is why they have some disagreement in tactics 
with al-Qaeda, whom they separated from. But separating does 
not change where they came from and who they were when we first 
engaged in the fight with them. And so, you know, there is a 
legitimacy to the 2001 effort because it began a long time ago 
against this very group that simply changed its name and some 
of its tactics. It does not change the threat to the United 
States.
    So we could obviously and we will continue to prosecute 
that. But, you know, senators themselves have raised this 
concern that we are operating under this longest AUMF ever. So 
there is a much greater clarity and a much greater force that 
comes from a statement from the Congress that this reincarnated 
entity and this current metastasizing that is taking place is 
not going to be tolerated specifically. And that is important.
    And frankly, to also answer an earlier question, are there 
some questions from some people about the staying power of the 
United States, sometimes you hear that. I hear it in the course 
of diplomacy, and I think it is important to answer that in 
this context at this time.
    Senator Flake. I like Secretary Carter's formulation of 
what this AUMF needs to do. It needs to provide the necessary 
flexibility to wage this campaign, and it needs to send a 
message to our allies and to our adversaries that we are in 
this for the long haul, and we will back up the efforts of our 
allies. And frankly, we need to make clear what the roles of 
those allies will be.
    And so, just to end it, I do believe that an AUMF is 
certainly needed here if we have a campaign that is going to go 
on for a long time and believe it will go on longer than 3 
years. But I am not troubled by the sunset provision, and 
certainly we can come back after 3 years and revisit this with 
a new administration. And I might wish for more firm language 
with regard to what an enduring force or whatever else, but I 
think we need to value also language that can get a good 
bipartisan majority to send that message. That is important, 
too, and as we know, in this body, we never get everything we 
want.
    So I commend the administration for coming forward, for 
listening to us on this committee as this AUMF was formulated, 
and for consulting and listening to others as well. So I hope 
we can move forward, and I appreciate the testimony.
    The Chairman. Thank you. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. Thank 
you to all of our witnesses. Thank you for your extraordinary 
gestures to come back to this committee over and over again 
both in private and in public to work with us on this the most 
important question that the Foreign Relations Committee and the 
Congress takes up, the question of when to commit U.S. 
personnel into war.
    I remain as frustrated as many of my colleagues with this 
question over these definitions. I think the problem is in part 
every different member of the administration we talk to does 
seem to have a slightly different interpretation of what these 
words mean. And I cannot blame them because, as I think 
Secretary Carter said, there is no historical operational 
definition of these words. But I think the lack of consistency 
has hampered our efforts to get on the same page together.
    And if we resort to just an understanding that these words 
mean something less than what happened in Iraq and Afghanistan, 
then that really is no limitation at all. And I am barely a 
lawyer. I practiced for about 4 years, but I do remember the 
concept of statutes being void for vagueness. I fear that this 
would suffer that same problem if we were not able to get a 
consistent understanding of what those terms mean.
    I want to ask one point of clarification on a piece of this 
terminology, and that is back to Secretary Carter. I was 
pleased at the language in the draft from the administration 
defining ``associated forces,'' including this limitation that 
it would be restricted to organizations that were actively 
engaged in fights against the United States. But I just want to 
clarify, you said in your testimony that it would be limited to 
associated forces that were actively engaged against the United 
States, but the language actually says ``engaged in hostilities 
against the United States or our coalition partners.''
    So as to this question of whether Boko Haram is covered 
under this, it is not really a question as to whether they are 
actively engaged in hostilities against the United States so 
long as they are engaged in hostilities against a coalition 
partner. Is it not true that this authorization would give the 
United States the ability, subject to the other restrictions in 
the authorization, to engage in hostilities against that 
organization?
    Secretary Carter. I think you are reading it right.
    Senator Murphy. And so, given that reading, let me just ask 
Senator Menendez's question again. Would Boko Haram, pledging 
allegiance to ISIS, be covered if the country in which they 
were engaging in hostilities was a coalition partner of the 
United States?
    Secretary Carter. Well, I cannot give you a legal answer, 
but I can give you a common sense answer to that. This is an 
AUMF that really focuses on the fight against ISIL. We have 
other authorities, which have already been alluded to in the 
2001, which also cover other situations, including some that 
may involve Boko Haram, that allow us to take action to protect 
ourselves in that case. But this is really focused on ISIL and 
the associated forces there when they engage in operations 
against us or our coalition partners as the text says. And that 
can be interpreted, but has not yet been interpreted, to cover 
other groups like Boko Haram.
    But just to be clear, under the 2001 authority, and this is 
important to me because, you know, we have really got to 
protect ourselves. There are authorities under the 2001 also 
that could extend to Boko Haram depending upon their behavior 
and the kind of actions that we needed to take to protect 
ourselves. So these are always in my experience, and, again, I 
am not a lawyer. I am just observing this as Secretary of 
Defense. Our counsels try to interpret the law in such a way 
that we are acting lawfully and consistent with the intent of 
the enabling legislation, and that we are able to take actions 
to protect ourselves. And they do not always--sometimes they 
get to those determinations when a particular instance arises.
    But I think it is important when we have this, and this is 
the last point I will make, to err on the side of flexibility. 
I think someone said earlier, well, this language could seem to 
allow an awful lot, the how part of the provision, and it does. 
The President--I think if you are hearing different things, the 
thing I would listen to is what the President said, and he said 
that this--he does not foresee, and this language does not 
authorize, the kind of thing that Iraq and Afghanistan 
represented. And then he gave some examples of the kind of 
campaign that we intend to wage, which Secretary Kerry noted 
earlier, ones in which we are enabling a force which provides 
the lasting victory against ISIL. That is our approach because 
that is the right approach to getting a lasting victory against 
ISIL.
    But I think in my role and in the chairman's role, some 
latitude there in the language is appreciated because we need 
to be able to do what we need to do to protect ourselves. And 
this encompasses the campaign against ISIL as we now foresee it 
and I think one can reasonably foresee it, and that is 
essential because we need to in this campaign.
    Senator Murphy. I have just got a minute remaining. There 
has been a lot of talk about sending consistent bipartisan 
messages to our enemies, and I agree. I do not think there has 
been much division on the message that we have been sending to 
ISIS. Whether or not we have an authorization, we stand united 
in our belief that we should take the fight to them.
    In the last few days there has been significant division 
between our two parties on the message that we are sending to 
Iran, an exceptional, I would argue, unprecedented letter from 
47 of our colleagues to the Ayatollah himself that many of us 
believe will have the effect and has the intention of 
undermining the authority of the President. Secretary Kerry, 
you are here before us. This is a subject of great debate 
within the Senate today. What do you believe are the 
ramifications of this letter? What do you believe is your 
interpretation of the facts of that letter, which state 
essentially that any agreement signed by the United States 
expires the minute a new President is sworn into office? Share 
with us your thoughts on whether this is helpful or hurtful to 
our efforts to try to divorce Iran from any future nuclear 
ambition.
    Secretary Kerry. Well, Senator and members of the 
committee, my reaction to the letter was utter disbelief. 
During my 29 years here in the Senate, I never heard of nor 
even heard of it being proposed anything comparable to this. If 
I had, I could guarantee you that no matter what the issue and 
no matter who was President, I would have certainly rejected 
it.
    No one is questioning anybody's right to dissent. Any 
Senator can go to the floor any day and raise any of the 
questions that were raised in that. But to write to the leaders 
in the middle of a negotiation, particularly the leader that 
they have criticized other people for even engaging with or 
writing to, to write them and suggest that they are going to 
give a constitutional lesson, which, by the way was absolutely 
incorrect, is quite stunning.
    This letter ignores more than two centuries of precedent in 
the conduct of American foreign policy. Formal treaties 
obviously require the advice of the United States Senate. That 
is in the Constitution. But the vast majority of international 
arrangements and agreements do not. And around the world today 
we have all kinds of executive agreements that we deal with: 
protection of our troops, the recent agreement we just did with 
Afghanistan, any number of noncontroversial and broadly 
supported foreign policy goals. The Executive agreement is a 
necessary tool of American foreign policy. It has been used by 
Presidents of both parties for centuries literally, and it is 
recognized and accepted by Congress from the earliest period of 
American history.
    Now, with respect to the talks, we have been clear from the 
beginning. We are not negotiating a ``legally binding'' plan. 
We are negotiating a plan that will have in it a capacity for 
enforcement. We do not even have diplomatic relations with Iran 
right now, and the Senators' letter erroneously asserts that 
this is a legally binding plan. It is not. That is number one. 
Number two, it is incorrect when it says that Congress could 
actually modify the terms of an agreement at any time. That is 
flat wrong. They do not have the right to modify an agreement 
reached executive to executive between leaders of the 
countries.
    Now, sure, could another president come in with a different 
attitude? No President, I think, if this agreement meets its 
task and does what it is supposed to do in conjunction with 
China, Russia, France, Germany, Great Britain, all of whom are 
going to either sign off or not sign off on an agreement. I 
would like to see the next President, if all of those countries 
have said this is good and it is working, turn around and just 
nullify it on behalf of the United States. That is not going to 
happen.
    So I have to tell you that, you know, knowing what we know 
about this, this risks undermining the confidence that foreign 
governments in thousands of important agreements commit to 
between the United States and other countries. And it purports 
to tell the world that if you want to have any confidence in 
your dealings with America, they have to negotiate with 535 
Members of Congress, and that is both untrue and a profoundly 
bad suggestion to make, I think.
    But aside from the legalities, this letter also raises 
questions of judgment and policy. We know that there are people 
in Iran who are opposed to any negotiated arrangement with the 
P5+1. And we know that a comprehensive solution is not going to 
happen if Iran's leaders are not willing to make hard choices 
about the size, and scope, and transparency of their nuclear 
program. And we know that a nuclear armed Iran is unacceptable.
    The Chairman. Mr. Secretary, I know this is a well written 
speech, but you have been at this for 5 minutes.
    Secretary Kerry. It is not a speech, my friend. This is not 
a speech. This is a statement about the impact of this 
irresponsible letter.
    The Chairman. And you have a lot of forums----
    Secretary Kerry. And the letter does not have legal 
authority, and, you know, I think you have to ask what people 
are trying to accomplish. The author of the letter says he does 
not want these agreements to be made, and he thinks before the 
judgment is even made that it is a mistake. So we will see 
where we wind up.
    The Chairman. Thank you.
    Secretary Kerry. But I am asked by one Senator the impact, 
and I am laying out to the committee what the impact is. And I 
am sorry if people up here do not want to hear it.
    The Chairman. And 5 minutes and 26 seconds later you 
finished. I will say that I did not sign the letter. I am very 
disappointed, though, that you have gone back on your statement 
that any agreement must pass muster with Congress. The way we 
pass muster here is we vote, and I think all of us are very 
disappointed with the veto threat and the stiff-arming that has 
taken place. But with that----
    Secretary Kerry. But, Senator, let me--Mr. Chairman, let me 
just----
    The Chairman. Senator Gardner.
    Secretary Kerry. Mr. Chairman.
    Senator Gardner. Thank you, Mr. Chairman.
    Secretary Kerry. You have the right to vote any day you 
want.
    Senator Gardner. Mr. Chairman, thank you for the time.
    Secretary Kerry. You can----
    Senator Gardner. Secretary Carter, Secretary Kerry, General 
Dempsey, I want to thank you all for testifying today. This 
issue of an authorization for the use of military force is one 
of the most serious issues that Congress can consider, and I 
look forward to our committee's hearings and consideration of 
the President's draft AUMF.
    I am concerned about perhaps mixed messages from the 
administration regarding the ISIL threat. On March 3, General 
Austin stated that ISIL is losing its fight against us, yet 
only a week earlier on February 26, Director of National 
Intelligence Clapper said the organization remains, ``a 
formidable and brutal threat and is increasing its influence 
outside of Iraq and Syria.''
    The threat from ISIL is real and requires a carefully 
coordinated strategy to ensure their complete destruction. I 
look forward to hearing from you today on defining the breadth 
and scope of our mission and how we can work together in 
ensuring its bipartisan success. I remain open-minded as to 
what gets the most support, but I want to understand the 
details and to fully know that we are not unnecessarily 
restraining or restricting our ability to win.
    To Secretary Carter, in your remarks you state that, again, 
I quote from your statement--your remarks, excuse me. ``I 
cannot tell you our campaign to defeat ISIL will be completed 
in 3 years,'' that you believe that the sunset clause proposed 
by the President is a sensible and principled provision. You 
have heard Senator Johnson, Senator Flake, Senator Cardin, 
Secretary Kerry all talk about this. If the AUMF is not 
authorized within 3 years, the next President could continue 
using other legal authority, such as the 2001 AUMF. Is that 
correct?
    Secretary Carter. That is correct. That is the legal 
interpretation of the AUMF, although I should note that the 
intent--stated intent--of the President is to revisit the 2001 
AUMF after this one as well. He has said that, and that is a 
totally different subject. But I would just note it.
    Senator Gardner. In your verbal comments here, you stated 
that what a shame it would be to have a safe haven for ISIL. 
And I believe you were referring to the geographic limitation. 
Could the 3-year time limitation, though, be interpreted as a 
safe haven as well?
    Secretary Carter. It certainly should not be. It is not by 
anyone involved in drafting the AUMF. As I said, it is not a 
number or time period derived from our thinking about the 
campaign. It is derived from our Constitution and from the 
election cycle, and it is for sure in our system that there 
will be a new President in 3 years. It is for sure that he or 
she will have had 1 year, as Secretary Kerry said, to get 
themselves on their feet, and, therefore, it foresees--it 
leaves latitude for this to be revisited.
    That is something I respect as a consequence of our 
political system. It is not a consequence of the battlefield 
dynamics or the campaign we are waging. Obviously we hope to 
wrap it up as soon as possible, but I specifically said, and I 
believe I cannot tell you it will be over in 3 years.
    Senator Gardner. And I think we have had testimony from 
others who have talked about the ability to go for 3 years, 
that we would not be able to actually defeat in 3 years, but 
what we would be able to do in 3 years. And so, is 3 years the 
right time? If you are going to put a time limit, should it be 
4? Should it be no time limit?
    Secretary Carter. Again, the number three has to do with 
our political system, not with the defeat of ISIS. Now, you can 
argue--I respect people who want to not have a sunset or 
something, but I do not think--I think the logic of 3 years 
derives from the nature of our political system. There is no 
foreseeing, in my judgment, how long it will take to defeat 
ISIL any more than you can begin any kind of military campaign 
and be sure exactly how long it will take.
    Senator Gardner. Thank you. And, Secretary Carter, you said 
in your comments, too, that ``enduring,'' and I believe it was 
in response to Senator Cardin, that ``enduring'' is not Iraq 
and Afghanistan. Can you give any more of a clear definition 
than that, the term ``enduring?''
    Secretary Carter. The President when he explained the 
provision which describes how the campaign is authorized to be 
waged, explained that there--he was not telling--he was not 
saying, and this is very sensible to me, enumerating the things 
that we could do. He was setting a limit, which is the language 
of ``enduring offensive ground combat operations,'' to mean 
something like Iraq and Afghanistan, not foreseen in our 
campaign, not asking for authority for it. He also gave some 
illustrations of what it meant.
    Senator Gardner. Just to follow--just to go back on that, 
and I am sorry to interrupt. So, I mean, that is the definition 
of the best we can get, though, is not Iraq or Afghanistan on 
the term ``enduring.''
    Secretary Carter. Well, it is an important principle, I 
think, that the AUMF reflects that makes sense to me not to try 
to enumerate everything that we may find it necessary to do in 
the course of this campaign. Instead, the text sets an outer 
limit. It does not try to enumerate everything. The President's 
language did illustrate some things, and Secretary Kerry cited 
them, but it does not try to say everything that we might have 
to do. And that is a good, sensible thing for a military 
campaign. You cannot know everything you are going to do.
    Senator Gardner. Thank you, Secretary Carter. I have two 
more questions I want to follow up. Secretary Kerry, in 
response to Senator Rubio, you had said that, I believe, that 
several of the Middle East counterparts that you have been 
talking to, you have shared with them details or some details 
of the negotiations with Iran. Am I misunderstanding your 
response?
    Secretary Kerry. We have shared with them an outline of it. 
We have not shared with them--actually we have briefed them. We 
had our team go down and brief them and give them----
    Senator Gardner. On the details of at least----
    Secretary Kerry. Well, some of the details, yes.
    Senator Gardner. Are those the same details that we have 
been briefed on?
    Secretary Kerry. You have gotten a much greater in-depth--
--
    Senator Gardner. Okay. I was just making sure. Thank you. 
And to--I believe to General Dempsey, talking about the 
peshmerga a little bit, in terms of percentage, if you look at 
the ISF overall, if you look at some of the fighting that is 
taking place and the efforts to undertake it against ISIL, what 
weight of effort would you say that the peshmerga or other 
fighting in the region are we currently pursuing against ISIL?
    General Dempsey. The early successes against ISIL were 
largely through the peshmerga, and that will evolve over time. 
But they have been carrying the majority of the effort thus 
far.
    Senator Gardner. And by ``majority of effort,'' is there a 
way--are they carrying out a third, three-quarters, 90 percent, 
the weight of effort?
    General Dempsey. No, Senator, I cannot actually put a 
percentage on it. But the early effort to blunt ISIL's momentum 
were in the north, and, therefore, with the peshmerga.
    Senator Gardner. And reports in the news and other places 
have stated that the peshmerga are only getting about 10 
percent of the arms that have been routed through Baghdad. Is 
that correct?
    General Dempsey. Again, I do not have the percentage. I can 
certainly take it for the record. But there was some friction 
early on with the willingness of the Government of Iraq to 
provide weapons to the peshmerga, but we think we have managed 
our way through that.
    [The written response to the question above follows:]

    The peshmerga are receiving a higher percentage of arms and 
ammunition delivered to Iraq then the reported 10 percent. As of 14 
April 2015, the Ministry of Peshmerga has received approximately 41 
percent of the munitions and 61 percent of the weapon's systems 
delivered to Iraq. These numbers include all USG programs (Foreign 
Military Financing, Foreign Military Sales, Iraq Train and Equip Fund, 
Excess Defense Articles, Presidential Drawdown Authority) as well as 
coalition donations.

    Senator Gardner. And so, right now you feel confident that 
the problem we faced in seeing that arms reach Erbil has now 
been settled and resolved?
    General Dempsey. I am confident that we broke through the 
initial friction, but it does not mean it will not recur.
    Senator Gardner. Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman, and thank you, 
Secretary Kerry, and Secretary Carter, and General Dempsey, for 
being here.
    I was very pleased when the administration sent over 
language for the AUMF. I supported the AUMF that passed out of 
this committee in the last Congress because I think, as you all 
have said, that it is very important for our men and women who 
may be putting themselves at the risk in the fight against ISIL 
to know that they have the support of Congress. I think it is 
very important for the American public to know--to hear this 
debate and to have--to know that Congress is supporting 
whatever action that we take.
    And with respect to that, one of the places where I think I 
would have issue with the language that was sent over by the 
administration is with respect to the reporting on the ongoing 
actions. As you all know, the language in the AUMF that the 
administration sent over says that the President shall report 
to Congress at least once every 6 months on specific actions 
taken pursuant to this authorization.
    In looking at the AUMF that passed the committee in 
December, the reporting requirements are much more robust and 
much more comprehensive. So it requests reporting every 60 
days. It also requests a comprehensive strategy report that 
would be clear to Congress and, therefore, to the American 
people, the specific political and diplomatic objectives of the 
United States in the region. It asks for clearly defined 
military objectives, and the list goes on.
    And while I appreciate that there may be concern on the 
part of the executive branch and the military about the level 
of detail that is requested in that AUMF, it still seems to me 
that there is a benefit from providing additional detail about 
the mission and more frequent periodic reporting. I think that 
is important not just for Congress. I think there are also some 
benefits to the operation because it makes it very clear in 
writing at some level what the plan is. And, you know, I was 
always taught that a plan is not a plan unless you have written 
it down somewhere, unless you have got something that you can 
refer to.
    So can I ask you first, I think, Secretary Kerry, if you 
would respond to that, and then perhaps Secretary Carter and 
General Dempsey might want to as well.
    Secretary Kerry. Senator, of course--I mean, first of all, 
believe me, the plan is reduced to writing, and the President 
reviews it, and there are an enormous amount of analysis that 
goes into this. So you are right certainly that, you know, it 
needs to be specific. But I think there is a balance between 
the amount of time and the numbers of efforts that are put into 
reporting versus fighting the war, getting the job done.
    Senator Shaheen. Sure.
    Secretary Kerry. And I think you do not want to tie 
people--I mean, I have asked the State Department to do a 
review of all the reports that we have to do, and the numbers 
of people, and the person hours that are put into reports that 
frankly do not often do not get thoroughly read or digested.
    And so, I think there is a briefing process that my memory 
here works pretty well, and 6 months, when you think of it, is 
a pretty fair amount of time. It is not so much time in the 
course of this in terms of the review that it does not do the 
job when you mix it also with the numbers of classified 
briefings, hearings that will take place, and so forth.
    So, look, we are not trying to resist accountability, I 
assure you. But surely we could find a way to balance so that 
there is not, you know, an excess of paper turning and process 
that actually gets in the way of getting things done. I think 
there is a balance personally. I have not talked to my 
colleagues about it, but I would assume, I think, they might 
feel the same way.
    Senator Shaheen. And certainly I would agree that there is 
a balance. I am just questioning whether the balance in the 
language that has been sent over is the right balance. I do not 
know, Secretary Carter, if you or General Dempsey want to add 
anything.
    Secretary Carter. I think ``balance'' is the right word, 
and you are both seeking that. And I agree with the principle.
    General Dempsey. And I would just add, Senator, it is for 
you to determine how to exercise your oversight authority. But 
it was aligned somewhat with the way we do our war powers 
reporting, and that may--there was a logic to that.
    Senator Shaheen. Thank you. I want to make sure I 
understood something that I think you said, Secretary Carter, 
and that was that--I did not get this quote down exactly 
correct--But you said something about believing that the 2001 
AUMF gives us the ability to protect ourselves if we are 
attacked. Did I understand that accurately?
    Secretary Carter. Well, it is more specific than that, and, 
of course, the legal interpretation is more specific than that. 
But I was simply saying that the existence of that since 2001 
has provided the authority under which we have protected 
ourselves, and it is quite clear that we have needed to protect 
ourselves. And it is as simple as that.
    Senator Shaheen. But the question I have is did we need 
that AUMF to protect ourselves if attacked. What I am trying to 
figure out is why--is whether we should put--insert specific 
language in this AUMF that acknowledges that the fight that we 
are engaged in now is one that is covered by this AUMF, and, 
therefore, the 2001 is not part of the action that we are doing 
now.
    Secretary Carter. I will explain my understanding, and then 
ask Secretary Kerry to add. The text of the AUMF that has been 
submitted explicitly states that this supersedes the 2002 AUMF. 
And the President has also indicated his willingness----
    Senator Shaheen. Right. That I understand.
    Secretary Carter [continuing]. His willingness and, I 
think, his desire to revisit the 2001 AUMF. The only thing I 
would say is that it is important that as we do that, I 
understand the desire to revisit the 2001 AUMF. We do need the 
continuing authority that this new one does not provide to 
continue to protect us against others, not ISIL. We need some 
authority to do that in order to protect the country. And if we 
replace the 2001, that is fine with me as long as it gives us 
the authority to protect ourselves.
    Senator Shaheen. Can we just get a clarification, Mr. 
Chairman? I have seen press reports that the White House is 
open to Congress inserting language--legislative language on 
this point as we did when we passed out of the committee the 
AUMF in December. Secretary Kerry, do you have--do you know if 
that is correct, if the administration would accept that kind 
of language?
    Secretary Kerry. I do not specifically know if the decision 
had been made to accept language, though I do know specifically 
that the President has said that, and it would sort of invite 
the notion of language because he has said that if you pass an 
AUMF with respect to ISIL now, he will rely on his authority 
for ISIL on that AUMF and not the 2001, so that would seem to 
leave it open. I just do not want to conclusively say they 
would accept language because I have not personally heard that 
signed off.
    Senator Shaheen. Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman. I have a question 
for Chairman Dempsey. But first, I just want to thank you 
personally for your lifetime of service, and I hope that you 
will take my echo of the request earlier to give our 
condolences to these heroes that lost their lives last night.
    In his recent address before Congress, the Israeli Prime 
Minister Netanyahu stated, ``So when it comes to Iran and ISIL, 
the enemy of your enemy is your enemy.'' Would you respond to 
that from a military perspective for me?
    General Dempsey. Well, I will not respond to the Prime 
Minister's choice of words or how he determines his national 
interests. But in terms of our national interests, as I 
mentioned, we have six things that concern us about Iran. One 
of them happens to be their nuclear program.
    Senator Perdue. Thank you. A followup on that is after two 
wars and 14 years later, as Secretary Carter reminded us 
earlier this morning, al-Qaeda still exists. That is not a 
criticism. It is just a reality. I would like for you to help 
me define what we seek from a military point of view, what a 
victory is with ISIL in this--with regard to this AUMF and our 
current task ahead of us.
    General Dempsey. Yes, thanks for asking, Senator. We 
actually rarely have the chance to talk about the overall 
scheme here, if you will. So ISIL is transregional, which is to 
say they are not just confined to Iraq and Syria. They are 
generational, which is to suggest the duration of this campaign 
will be prolonged. We are seeking to find a sustainable level 
of effort.
    And when I say that, you know, I did not have the chance to 
respond to the difference in AUMFs from 1941 to 2015. It is 
important to note that the use of military force in a state-on-
state conflict is very different than the use of military force 
in a state on a nonstate actor. And so, the military brings 
three things, and we own two lines of effort out of nine 
against ISIL. The other lines of effort are governance, 
countermessaging, counter foreign financing, humanitarian 
relief, and so forth.
    The two things that we are doing is, of course, using 
direct action, and notably with our airstrikes. And the other 
is building partner capacity, which is to say building up the 
ability of the Peshmerga, the Iraqi security forces, and the 
Sunni tribal leaders to reject ISIL because it will only be 
permanently defeated if they reject the ideology, not simply by 
us cutting off its head. It has actually got to be rejected 
from within, and that requires a different application of the 
military instrument than it would be if we were fighting a 
state-on-state actor.
    One last thing, and then in the interest of time I will 
stop. The military does three things for this Nation: direct 
action, build partners, and enable others. The best example we 
have right now of enabling others is what we are doing with the 
French in Mali against al-Qaeda of the Islamic Maghreb. So that 
is what we are doing. That is what this AUMF allows. And the 
limiting principle, I sense we are looking, or some of us in 
the room are looking, for a limiting principle. The limiting 
principle is the way this particular enemy will be defeated. It 
will not be defeated by U.S. military power alone.
    Senator Perdue. Thank you. You mentioned last week, Mr. 
Chairman, that you were concerned about what happens with 
regards to sectarian violence and so forth. And if we are 
victorious against ISIL in Iraq, it looks to me like that Iran 
is also victorious because of their efforts there behind the 
Shia militia. Can you speak to that just a minute in terms of 
that part of the definition of victory? And then what do we do 
from a military standpoint once we declare victory over ISIL in 
Iraq and Syria, by the way?
    General Dempsey. There is a lot in that question.
    Senator Perdue. Yes, sir.
    General Dempsey. Look, Iran is going to be influential in 
Iraq, has been influential in Iraq, and I am concerned about 
the way they wield that influence. There are ways they could 
wield it to promote a better Iraq economically, for example, 
and there are ways they can wield that influence to create a 
state where the Sunni and the Kurds are no longer welcome. And 
it is my concern about the latter that we are watching 
carefully as this Tikrit event unfolds.
    As far as declaring victory against ISIL, that is not for 
us to declare. As I said, very much we can enable it. We can 
support a coalition, hold the coalition together. We can build 
into the region. We can harden the region against it 
militarily. But the ideology has to be defeated by those in the 
region.
    Senator Perdue. Well, I am concerned about Iran's stature 
in the region, particularly relative to Assad and Hezbollah as 
well as the Shia militia. And so, this looks like that if we 
are successful, we have a partner in crime here where Iran is 
also going to be successful and strengthen their position.
    Let me echo one thing that I heard both sides say this 
morning, and I want you to pass this along to your men and 
women in service, if you will, is that we hope we will end up 
unified. I absolutely believe we have to be like-minded in 
this. This is bigger than any partisan position. This is about 
the security of our country. And the lesson we heard from the 
speech from last week was simply this, and that is this is 
bigger than the Middle East. It is bigger than our national 
security. This is about global security all of a sudden.
    I would like to follow up real quick if I could on this 
symmetric versus asymmetric conversation, though. You are 
talking about the symmetric or the asymmetric question with 
regard to Iraq, Syria, and the Middle East right now. I am a 
concerned a little bit, and I would like to have you respond, 
if you will, and maybe Secretary Carter as well. What impact 
does this have on our long-term strategy relative to the 
symmetric threats? And I know that we do not talk a lot about 
the People's Republic of China. We do not talk about Russia in 
this conversation. But it is all interrelated, and I would like 
to see how this in your mind relates to the longer term 
strategy.
    General Dempsey. Thanks, Senator. So for the first time in 
my 40 years, we have both state and nonstate threats to our 
national interests because in my first 25 years it was all 
about state threats, notably the Soviet Union. For the last 15 
years, it is all about nonstate actors. We live now in an 
environment where we have threats emanating from both states 
and nonstates, and it makes--we are actually adapting quite 
well to that. And I do not want to turn this into a budget 
hearing, but if we do not get some budget help on this issue of 
sequestration, it is going to be very difficult to manage both 
threats.
    Senator Perdue. Thank you, sir. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator. For you not to get a word 
in about your budget would be a remissful thing on your part.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman. And I want to 
thank Secretary Kerry for his strong words about the letter 
that was sent by our 47 colleagues to the Government of Iran. I 
think that was a serious breach of protocol and exercise in bad 
judgment, especially at this very sensitive time. And I thank 
the Secretary for taking that very strong position in this 
hearing.
    Secretary Carter, what I would like to ask you is how this 
extends to Libya, and what this authorization could mean given 
the increasing stronghold that ISIS has in many parts of Libya, 
and what it could portend in terms of U.S. commitment to the 
removal of ISIL from Libya.
    Secretary Carter. Senator, thank you. There are those in 
Libya who are, I will use the term, rebranding themselves as 
ISIL. That is not the only place we see that, but it is 
certainly going on in Libya. And, therefore, this AUMF could 
apply to operations in and around Libya against those groups, 
depending upon their behavior and whether they have met this 
criteria of this AUMF. And also because the 2001 AUMF is extant 
as well, that could also cover actions we might need to take in 
Libya as it has in the past if there are successor groups to 
al-Qaeda. So both of those might apply to Libya, and these are 
the kinds of things, determinations that are made as these 
cases arise.
    But you do see in this social media fueled movement called 
ISIL people who are wannabes or want to join or have been 
associated with al-Qaeda or some other group who are putting up 
the flag of ISIL. And we need to recognize that that is a 
characteristic of the campaign, and that is why the AUMF has 
the language that it does.
    Senator Markey. And if I may move back over to Syria in 
terms of what all of this means for a long-term American 
commitment, our goal is to remove Assad. The goal of Iran and 
Russia is to keep Assad in office, Iran most prominently given 
their now Crescent move from Baghdad over through Tehran into 
Damascus.
    What does this mean in terms of the commitment that we are 
making to have the moderate Syrians depose, take out, Assad? 
That is their goal. Are we committing to back them in their 
effort to depose Assad because that is their stated public 
goal. So how do we square up this AUMF potentially with that 
longer term goal, which our principal allies inside of Syria 
would have?
    Secretary Kerry. Senator, this is ISIL specific. There are 
those who wish it would include Assad, but it does not. We are 
supporting the moderate opposition, however, very directly in 
the efforts that are focused on Assad. And the Congress, and we 
are grateful for it, has approved the training and equip 
program. Some $500 million have been appropriated. And that 
program is about to be up and running. In addition to that, 
there are other activities, as you know, that are focused on 
the issue of President Assad. But specific to the AUMF, the 
AUMF is ISIL specific, and it does not authorize activities 
against Assad.
    Senator Markey. But in helping to fight ISIL inside of 
Syria and strengthening the moderate Syrians, whose goal is to 
remove Assad, are we not at a minimum indirectly helping that 
goal to be achieved by potentially eliminating the threat of 
ISIL to that goal of the moderate Syrians? And are we 
contemplating as a result then a longer stay in Syria to 
accomplish that goal as well?
    Secretary Kerry. No, I think when you say ``a stay in 
Syria,'' we are not in Syria.
    Senator Markey. No, I mean, stay in terms of our military 
support for----
    Secretary Kerry. The military support is----
    Senator Markey [continuing]. Taking out ISIL and 
strengthening the moderate Syrians.
    Secretary Kerry. We are committed to strengthening the 
moderate Syrians. We are committed to help train and equip. We 
are committed to other activities that are specifically focused 
on the Assad regime. But this authorization and the efforts to 
deal with ISIL are focused on degrading and destroying ISIL. 
And that particular military activity, should that goal be 
accomplished, would then cease and desist. But the effort to 
support the moderate opposition will continue.
    Now, obviously if ISIL is eliminated and the moderate 
opposition has gained capacity as a consequence of that 
particular fight, they are going to be strengthened in their 
other activities. And we have made that argument openly and 
publicly.
    Senator Markey. How long, in your opinion, General, do you 
think it will take for Assad to be removed militarily or 
politically given his current state?
    General Dempsey. Well, it is two very different questions. 
I mean, the diplomatic line of effort is the primary line of 
effort right now. I have not been asked to apply military--the 
military line of effort to the removal of Assad, so I think I 
would actually defer to others on how long it might take. I 
mean, the position of the United States was clear, and that is 
that he has given up the legitimacy of governing people who he 
is oppressing.
    Senator Markey. Thank you.
    The Chairman. If I could, and just to respond to Senator 
Markey and Secretary Kerry's previous comment, I would like to 
ask unanimous consent to enter into the record a copy of 
Congress.gov where then-Senator Kerry and then-Senator Obama 
cosponsored a bill to ensure that Congress had a vote on the 
agreement that we reach with Iraq. I understand that in this 
world sometimes where you stand is where you sit, but I would 
like to balance out some of the discussion today and understand 
that certainly positions change sometimes depending on which 
side of the table you are sitting.

    [The information referred to was not available when this 
transcript went to press.]

    The Chairman. And with that, Senator Isakson.
    Senator Markey. If I may, Mr. Chairman, I was referring to 
the timing of the delivery of that letter given the 
negotiations which Secretary Kerry is right now engaged in. 
And, again, I continue to believe that was an inappropriate 
document for the time at which it was delivered, just not 
timely.
    The Chairman. Thank you.
    Senator Isakson. Thank you, Mr. Chairman. Thank you all for 
your service to the country. We appreciate your patience here 
today. I had a college professor who once said the mind can 
only absorb what seat can endure. You have been enduring a lot 
of time, and we hope we will not keep you much longer.
    I have one question, and it is for Secretary Kerry, and it 
is not a deference to you that I am asking the question. I want 
to thank you for your service. You do a great job for the 
American people, and you work--you have a job that has a 
Commander in Chief who is a politician, who is subject to 535 
other politicians and your funding. So any question I ask you 
would not be really fair if it had a political connotation to 
it.
    But, Secretary Kerry, you and I have served together a long 
time. You served the country in Vietnam. You have been a great 
leader for our country. And you know this is really a political 
issue in part, and has political overturns in terms of the 
AUMF, which I do support. And I believe that Senator--the 
remarks made by Senator Menendez, Senator Flake, Senator 
Perdue, and others about the need to come together as a 
Congress and have a meaningful AUMF are important.
    Here is what I want to ask you, Secretary Kerry. The first 
President to ever mention radical Islam was Thomas Jefferson 
and the Barbary pirates. General Dempsey has talked about this 
being an enduring conflict, and talked about it being 
regionally--evolving regionally and being transregional. We 
know that ISIL is in the Maghreb through Boko Haram. They are 
in the Levant. We have had attacks in Paris. We have had 
attacks in Brussels. So it is a growing threat.
    Here is my question. If, in fact, we have had problems all 
the way dating back to Thomas Jefferson, and, in fact, this is 
a growing regional threat, having a time limitation on the AUMF 
does not make a lot of sense to me because I think we have a 
united commitment as a country and as a Nation to fight ISIL 
and to defeat ISIL. But as General Dempsey has said, that 
definition is not the easiest definition to write into words. 
It is a combination of a lot of things happening together, one 
of which is an enduring commitment.
    On the term of ``enduring,'' I think enduring in terms of 
the AUMF means it does not mean special forces, but it probably 
would mean 672,000 troops being deployed. And I can understand 
that is something the President would probably want to come 
back to the Congress and get an authorization for. But if we 
took off the 3-year limitation so that this was a commitment 
until we accomplish our goal of degrading and destroying ISIL, 
would we not be better off to send the clear signal that there 
is no end to this conflict as we are concerned until we win the 
victory? And that was probably a disjointed question and more 
of a statement, but I would appreciate your response.
    Secretary Kerry. Thank you, Senator. No, it is a very 
important one actually, and I appreciate it.
    Senator Isakson. And you do not have to commit yourself on 
behalf of the administration, but thought-provoking comments, I 
would like to hear them.
    Secretary Kerry. Well, thank you. First of all, let me 
thank you personally because I am delighted you stayed on the 
committee. I see you gave up a couple of seats of seniority to 
do so, and I well know why you did. And I certainly want to 
express my appreciation because I know you will be a strong and 
critical voice for some of the things that do not always get 
paid attention to, particularly in Africa. So I thank you for 
that.
    I do not think there is any doubt--I mean, I believe that 
the 3 years, if they are accompanied by the vote that is 
necessary here, and by the accompanying commitments by each 
senator who goes to the floor and speak and define why we are 
doing this and what we are doing, I think would be a healthy 
debate. I am confident coming out of that will be an absolute 
understanding by everybody in the region and in the world that 
we are deeply committed to this and committed for more than the 
3 years.
    I think the 3 years will be respected, as Secretary Carter 
said, as a reflection of the kind of political process here, 
and not as a diminishment of the fundamental commitment to 
achieve our goal. Every country in the region is committed to 
defeat ISIL, every country. And that is particularly what has 
prompted some of the questions here because of Iran's 
commitment to do that.
    So I really think that the 3 years is more of a statement 
of respect by President Obama of personal choice for him to say 
to the next President and to the Congress, review this, take a 
look at it, see how it is going, tweak it if necessary. I do 
not think he has any doubt about the readiness and willingness 
of Congress to continue that forward, but perhaps with some, 
you know, state-of-the-art refinements.
    So I do not think it is a problem. I think we can deal with 
that, and I think in order to achieve the vote that is 
necessary, the experience of Iraq and the experience of 
Afghanistan, you know, create a sufficient cloud over the 
potential of this vote that I think everybody can say, okay, 
what is the matter with doing--you know, reviewing it in three 
years, but let us go do it. And I think that is the commitment 
that we need, and that gets us the stronger vote to do that.
    Senator Isakson. Well, I appreciate your response. I would 
just ask you to take that message back and massage it a little 
bit and think about what I said, because I think the 
unequivocal commitment to see it to the end is important to be 
sent. And I think the enduring presence gives you a chance to 
come back and revisit it if we expand our military operations. 
But in the meantime that we have a common ground to get the 
vote out necessary to send a clear signal that Congress and the 
White House are united. Thank you for your time and your 
service.
    Secretary Kerry. Thank you, Senator.
    The Chairman. Senator Coons.
    Senator Coons. Thank you, Chairman Corker. I want to start 
by thanking General Dempsey and Secretary Carter and Secretary 
Kerry for your service, for your testimony, your engagement 
with us today. We recently heard of tragic news of 11 service 
members, four soldiers, seven marines currently missing and, I 
believe, presumed lost in a training accident at Elgin Air 
Force Base. And I just think it is worth a moment of prayerful 
reflection on the enormous sacrifice that they have and that 
their families--the loss that they are facing. Dover Air Force 
Base will be the place to which those families now go and their 
remains returned. And I think all of us who are contemplating 
the undertaking we are about to authorize, that I pray we are 
about to authorize, is one that will involve a great deal of 
sacrifice across many countries and many years.
    A question I wanted to raise is about who bears the cost. 
In addition to the men and women of the Armed Forces and their 
families, I think we need to be putting on the table in our 
conversation about authorizing the conflict against ISIS the 
financial cost. General Dempsey was right to raise the concerns 
about DOD's budget for maintenance of effort across many 
different fields. The need to pay for this war is, for me, a 
central concern going back to 1961 when President Eisenhower 
said America could choke itself to death piling up military 
expenditures just as surely as it can defeat itself by not 
paying enough for protection.
    We have used a combination of either spending cuts or 
increased revenue to pay for every conflict before the 2003 
Iraq war, and the two post-9/11 engagements added literally 
trillions of dollars toward the Nation's debt.
    So I think we cannot write another blank check for a war. 
We have to pay for it. I think it is not only fiscally 
responsible, but morally responsible, and engages every 
American in bearing the cost of the conflict. And I am aware 
this is not directly within the purview of this committee, but 
I think it is the responsibility of all of Congress.
    So I am intending to renew this conversation. In the last 
Congress I introduced an amendment to the AUMF that was debated 
and considered, and I will do so in this debate and 
consideration, and also in the upcoming budget process. I 
wondered if any of you cared to comment on behalf of the 
administration on an amendment that would call for a temporary 
war surtax that raises revenues, or one that is a mix of 
raising revenues and cutting spending, to offset the cost of 
the conflict against ISIL. Secretary Carter, I will start with 
you, if I might.
    Secretary Carter. You are raising a very important 
question. My own view is that question is not best associated 
with the authorization for the use of military force, although 
it is a very important question. The AUMF principally covers 
the kind of campaign required and the support and authority of 
the President to engage in that.
    With respect to the expenditures, we are in a situation, 
and Chairman Dempsey referred to this, and I believe the State 
Department also in terms of its own budget, of one in which we 
have had year after year of turmoil, which is disruptive, which 
is wasteful, which causes all of us, and I think this is 
probably true in the State Department budget and any of my 
other colleagues, to have a very difficult time managing 
appropriately and efficiently. So that is a very important 
problem.
    And I appreciate your attention to it, and agree with what 
you said. Again now, I am offering a view off the top of the 
head here, but I think that that is best dealt with and needs 
to be dealt with, but best dealt with in another way than by 
incorporating the funding situation in the AUMF. And I will say 
one more thing. Well, I think that is----
    Senator Coons. Thank you, Mr. Secretary. The point I am 
simply trying to raise is that at the same time that the 
Chairman of the Joint Chiefs raises appropriately, enduring 
budget concerns. As a former member of the Budget Committee 
myself, I feel uncomfortable that we continue to use OKO 
contingency funding for more and regions, more and more 
functions. And I would like to see us take on perhaps in other 
committees the responsibility of clearly shouldering the 
responsibility of paying for this and not just asking for 
sacrifice from those who wear the uniform.
    Secretary Kerry, if I might, two questions in the time I 
have left. There has been some back and forth and a number of 
questions by senators about what ``associated forces'' mean. 
Both Senator Isakson and I have long been engaged in issues 
relating to Africa, as you well know, and whether in Libya or 
in Nigeria. There have recently been organizations pledging 
their allegiance to ISIL. Just this past Saturday Boko Haram 
leader, Abubakar Shekau pledged allegiance in a statement that 
they posted to their Twitter account. And I think the conflict 
with Boko Haram and Nigeria is another frankly good example of 
a situation where an American boots on the ground presence is 
not what is called for. An American effort to facilitate and 
support efforts by the Nigerians and their regional allies is 
the best strategy going forward.
    But in your view, if that began to take off and their 
conflict began to engage some of our coalition partners, would 
this AUMF qualify for us to go after any groups that have 
pledged allegiance? And then what are the actions they need to 
take against coalition partners or Americans in order to be 
covered by the AUMF in its current language?
    Secretary Kerry. Well, Senator, thank you for the question, 
an important one. As of now at this moment in its current 
state, merely by pledging as they have pledged, or flying the 
flag, or, you know, saying that they are now affiliated, there 
is no decision made nor any contemplated that they would be 
covered under this at this moment. I mean, that is not 
adequate. But if, as Secretary Carter said, they start to 
attack the United States or join with ISIL in a specific 
strategy to attack coalition partners, that would raise a 
legitimate question, and this authorization could, in fact, 
under those circumstances cover them. It would have to be--you 
know, there would be a lot of internal scrubbing of exactly 
what those activities were, what the implications are and so 
forth. It would not be automatic, but it would be open to 
judgment.
    Senator Coons. Let me ask one last question, if I might, 
Mr. Secretary, on the topic of the negotiations with Iran. I 
will make a statement, and if you care to comment, that would 
be great. It is my hope that if a long-term agreement is 
reached, that the inspection obligations, the IAEA inspection 
obligations will be enduring and will not simply sunset at the 
end of whatever that term is. And I think knowing that there 
was a continuing inspection obligation would give some comfort 
to those of us who do not trust Iran and are not confident that 
at the end of the window they will not simply immediately 
return to their previous illicit nuclear weapons activities. Do 
you care to make a comment?
    Secretary Kerry. I will make a very quick comment, and it 
addresses a lot of the comments that we have been hearing from 
the Hill over the course of the last weeks and months. I keep 
hearing people say we do not trust Iran, we do not trust Iran. 
Nothing in this agreement contemplated, if it gets reached, is 
based on trust. Nothing. In fact, it is based on distrust, and, 
therefore, would have to be accompanied by an adequate level of 
verification, whatever that may be. I am not going to discuss 
at all what might or might not be contemplated, but I will just 
simply say to you whatever agreement is reached is not on the 
basis of some words in a document and trust. It has to be 
verified. It has to be accountable.
    Senator Coons. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    The Chairman. Senator Risch.
    Senator Risch. Thank you, Mr. Chairman. General Dempsey, 
this question is for you. First of all, let me state this as a 
statement. I appreciate what you are doing here. I think all of 
us agree that we need a strong vote on this AUMF, and I 
appreciate your efforts, Senator Kerry--or, excuse me, 
Secretary Kerry, to put this together. And this is a very 
difficult needle to thread because of the wide variance of 
views in Congress. So I appreciate your efforts to do that, and 
I am hoping at the end of the day that we do have this strong--
a strong vote in support of this. So I urge you to continue 
those efforts.
    General Dempsey, this question is for you. If this passes, 
how will things be different after this passes than they are 
now? What is this going to change?
    General Dempsey. I do not think there will be any 
difference in our activities. I think there will be potentially 
a difference among our coalition partners in the way they view 
our commitment to the fight. But in terms of the way we apply 
military force either directly through partners or enabling 
others, it will not change.
    Senator Risch. Okay. Thank you very much. Mr. Chairman, 
this--what I am going to say now is a statement for the record. 
It is not a question. And I want to respond to some of the 
comments that were made here today.
    I am one of the 47 senators that signed the letter that 
there has been all this talk about in recent days. You know, 
this indignation and breast beating over this letter is 
absolute nonsense. Each of us that signed that is an elected 
Member of the United States Senate, and as such is a member of 
the first branch of this government. To say that we should not 
be communicating is nonsense.
    Members of Congress every single day communicate with 
members of other countries, with Presidents, and heads of other 
countries, with Secretaries of State and Foreign Ministers from 
other countries. It is done regularly. Every time Congress has 
a recess, loads of airplanes leave Andrews Air Force Base with 
dozens of Members of Congress who go directly and meet face-to-
face with these heads of state. This letter was nothing more. 
We have constitutional responsibilities, that we as elected 
officials of this first branch of government, are required to 
meet.
    The problem we have got here is we have a real disagreement 
over the talk regarding this treaty. And let there be no 
mistake, this is a treaty that is being negotiated. Secretary 
Kerry and I were on opposite sides when we were debating the 
New START agreement. That was a treaty, an agreement, between 
two nations regarding their nuclear capabilities. This is the 
exact same thing. It is an attempt to reach an agreement over 
nuclear weapons capability with another nation. It is a treaty 
and should be treated as such. I hope an agreement is reached. 
I really hope we get a good agreement. If we do not get a good 
agreement, there should be no agreement.
    I will say in regards to what Secretary Kerry said about 
other countries in the region and their view of what is 
happening here, he conceded that they were nervous. I would go 
further than that. I meet with the same people. I would 
classify their feeling about this as queasy, very queasy, and 
anybody who doubts that should get the transcript of what Prime 
Minister Netanyahu said about it last week. I think the 
characterization that he made of how he feels, his country 
feels, is very representative of how other countries in the 
region feel.
    Mr. Chairman, that is a statement for the record. I yield 
back my time. Thank you.
    The Chairman. Senator Paul.
    Senator Paul. Thank you, Mr. Chairman, and thank you to the 
panel for coming today. Madison wrote that history demonstrates 
what the Constitution supposed that the executive branch is 
most prone to war, and, therefore, the Constitution, with 
studied care, vested that power in the legislature. Madison 
also went on to further write that the separation of powers 
would be protected by pitting the ambitions of one branch 
against the ambitions of another. There will be points of 
dispute. These points of dispute are important, and no one side 
will monolithically be able to declare victory.
    But I can tell you I am not particularly happy with being 
lectured to by the administration about the Constitution. This 
is an administration who I believe has trampled the 
Constitution at many turns. This is an administration that 
seeks to legislate when it is not in their purview, whether it 
be immigration, whether it be health care, or whether it now be 
a war that has been going on for 8 months without congressional 
authorization. This administration is in direct defiance of 
what Senator Obama ran on and what he was elected upon. He said 
no country should go to war without the authority of Congress 
unless under imminent attack. This is a great debate.
    I signed the letter to Iran, but you know what? The message 
I was sending was to you. The message was to President Obama 
that we want you to obey the law. We want you to understand the 
separation of powers. If this agreement in any way modifies 
legislative sanctions, it will have to be passed by Congress. 
That is why I have supported Senator Corker's legislation that 
says exactly this. However, I have told Senator Corker 
privately I think that is the law anyway, that this will have 
to be passed. You cannot undo legislation.
    So why did I sign this letter? I signed this letter because 
I signed it to an administration that does not listen, to an 
administration that at every turn tries to go around Congress 
because you think you cannot get your way. The President says, 
oh, the Congress will not do what I want, so I have got a pen 
and I have got my phone, and I am going to do what I want. The 
letter was to you. The letter was to Iran, but it should have 
been cc'd to the White House because the White House needs to 
understand that any agreement that removes or changes 
legislation will have to be passed by us.
    Now, people can have different interpretations of things, 
but I will go through a couple of things that bother me about 
the AUMF. The AUMF in 2001 says that ``nations or organizations 
that planned, authorized, committed, or aided in the attacks on 
9/11'' are the target. That is what the authorization is about. 
I do not read Boko Haram into that. I mean, if we are going to 
read Boko Haram into that, that is such a stretch that it is 
meaningless.
    Senator Murphy talked about vagueness. It is pretty 
specific in 2001 what we were supposed to do. I was all in 
favor of that. We had to do what we had to do with Afghanistan, 
with those who attacked us. If we have to go other places, we 
should have authorizations. I am not saying I will not vote for 
the authorizations. We just need to have them.
    So we have a new authorization that says we do not 
authorize enduring and offensive operations. The problem is it 
is so vague--I trust the military. When the military says this 
is not what we are contemplating, I trust you. But the thing is 
there will be another President who I may or may not trust, who 
may have a certain degree of lack of trust in this President 
saying that it is not being contemplated.
    So we say it is not 697,000, but the next President could 
say it is, you know. Is it 100,000? You know, that would be my 
question, I guess, to Secretary Carter. We are saying it is not 
697,000. Is it 100,000 troops, or could it be?
    Secretary Carter. Thank you, Senator. Well, it does not 
have a number in it, and that reflects the basic approach that 
this draft AUMF or proposed AUMF takes, which is to not attempt 
to enumerate or number, but to set a scope and a limit, a very 
meaningful limit----
    Senator Paul. But could it mean 100,000----
    Secretary Carter [continuing]. A meaningful limit referring 
to it, and the President specifically referred to the campaigns 
in Iraq and Afghanistan. And it just gets back to the whole 
logic of the campaign, which is to enable those in the region 
who can make a victory stick. That is the basic approach----
    Senator Paul. Right, and I understand not wanting--I 
understand not wanting to put a number on it. And when the 
authorization was passed in December, it did not put a number 
on it. It defined sort of the mission more precisely. In doing 
so, it basically defined what we are doing over there now. I 
see nothing that we are doing there now that would not have 
flown under the definition from December.
    The problem is that without a geographic limit, we now have 
Boko Haram. People are saying it is sort of like, it is 
disdainful to say, well, you know, we want you all to pass 
something, but it does not really matter because we will just 
use 2001, which is just absurd. And it just means that Congress 
is inconsequential and so are the people in the country, that 
basically we will do what we want, and Boko Haram can be 
included under 2001. If Boko Haram is a threat to the country, 
bring it to me and we will vote, and I will listen honestly on 
whether we need to attack Boko Haram in Nigeria.
    But the thing is that I understand how things change over 
time and how people transmute words to mean things that they 
really were not intended to mean. If 2001 can be applied to 
Boko Haram, I am very concerned about voting for this as it is 
worded because if we are going to go to war in Libya, I want to 
vote for war in Libya. If we are going to go to war in Nigeria, 
I want to vote for war in Nigeria. And I am not talking about 
an isolated small episode where we have to go knock out a cell 
of people that are organizing to attack us. You may be able to 
interpret that under the imminent attack sort of clause of the 
Constitution.
    But I am concerned, that is why we get to numbers. Under 
this resolution, I believe you could have unlimited numbers of 
troops in Iraq. I understand you say it is not contemplated. I 
also believe you could have unlimited numbers of troops in 
Libya and in Nigeria, and now there are 30 nations that have 
pledged allegiance to ISIS. So words are important, and people 
worry about the danger of being too confining. We are not even 
anywhere close to that, because even when we thought we were 
confining in 2001, people have interpreted that to mean 
anything.
    And so, really, I guess, Secretary Carter, do you 
understand that if it were to pass as it is now, there are 
those of us who would worry that this would be authorizing 
unlimited troops in 30 different nations if the administration 
saw fit to send them?
    Secretary Carter. Senator, I think that any AUMF, and 
certainly this proposed AUMF, tries to strike a balance between 
anticipating a wide enough range of contingencies that we can 
react in the way that we need to protect ourselves and that we 
anticipate the nature of this enemy, while being restrictive 
enough to suggest to not just the law, but to you and our 
force, the force for which I am responsible and General Dempsey 
is responsible, what we are contemplating here. We are trying 
to strike that balance.
    It is always hard to strike a balance in language. I have 
said before I am not a lawyer. But in common sense terms, that 
is the balance that we are trying to strike. And I respect that 
different people might use different language to that effect, 
and I have learned enough in studying for this hearing about 
authorities for the use of military force to know that there 
are several avenues to do that. But I think that what is being 
done here is in recognition of a new chapter opening, namely 
the ISIL threat which opened last summer, the recognition that 
there is a new chapter in our effort to protect ourselves, and 
out of respect for that, a request for a specific 
authorization.
    And I think--I understand that. I do not think that--I 
think the lawyers have said there is a legal necessity for it. 
It does not come from legal necessity. It comes from a 
recognition of a practical fact, which is something happened 
last summer, which created a new danger to which--the defeat of 
which we need to participate. We are not going to do it by 
ourselves. We are going to enable others to do it, and that is 
the principal insurance against it turning into an Iraq and 
Afghanistan. That is not what is needed here. That is not what 
will succeed here. So just speaking as the Secretary of Defense 
and, again, not a lawyer, it seems to me that is the logic that 
brought us here. And I understand it.
    Senator Paul. Thank you. And I just want to say I do not 
question your sincerity, and when you say it is not 
contemplated, I truly do believe you, that it is not 
contemplated. But I have to deal with words that 15 years from 
now I have to explain to my kids, and their friends, and their 
kids' kids, that something I voted for in 2015 still has us at 
war in 2030 in 30 different countries, okay?
    It is an ongoing threat, but we need to keep the separation 
of powers. We need to vote on these things. And the reason it 
has to be precise is I cannot vote for something that is going 
to enable war in Libya, and Nigeria, and Yemen, and all these 
places with 100,000 troops. There has to be some kind of 
limitation. And it is not your sincerity I question. It is the 
politicians, and the next politician, and the next politician 
after you. But thank you very much.
    The Chairman. Thank you. I have one followup question for 
Chairman Dempsey and Secretary Carter. I understand that 
Secretary Kerry has a hard stop, and if you felt like you 
wanted to miss my last question, I would not consider it rude, 
and would like for you to get on with your business if you need 
to do. If you want to stay, that would be fine.
    Secretary Kerry. I really appreciate that. I do have a hard 
stop. Can I just take 1 minute for thing? I just wanted you to 
know that today the Treasury Department has authorized--has 
initiated additional sanctions on eight Ukrainian separatists, 
a Russian pro-separatist organization, three of its leaders, a 
Crimean bank, and additionally on some Yanukovych folks, 
supporters.
    In addition to that, we are today providing immediately 
some $75 million of additional nonlethal assistance immediately 
to Ukraine in order to help them in nonlethal assistance. And 
as you know, other things are currently under consideration. 
But I just wanted you to be aware of that, Mr. Chairman.
    The Chairman. Well, it is very timely. We thank you for 
that. We had a Ukraine-Russia hearing yesterday, and I know 
there is still the push to provide the lethal support. I know 
this--there were a lot of questions and some statements made 
today, but the fact is all of us deeply appreciate the 
tremendous amount of effort you put forth in your job. And we 
thank you for taking the time to be with us today with the many 
other demands that you have. Thank you.
    If I could, gentlemen, Chairman Dempsey, if I could just 
follow up a little bit on the AUMF and the issue of being able 
to protect those that we train and equip against Assad's 
assaults, and the fact that it is your belief that the AUMF 
does not cover that, nor does the 2001 AUMF, and I assume 
Secretary Carter agrees with that assumption. Is that correct?
    Secretary Carter. I do. I do, yes. I am told separately 
just to get to your question, if the forces that we train and 
equip come under attack from Assad, would we have the legal 
authority to help them defend themselves. And my understanding 
of that question is that we do not foresee that happening any 
time soon, but a legal determination, I am told by the lawyers, 
has not been made whether we would have authority to do that or 
not. Again, I am not lawyer, but that is what I am told.
    The Chairman. Yes, and I think that is what you may have 
said--someone said to Senator Graham last week. First of all, 
we thank you both for being here, and I know that coming before 
Senate panels is not first on your priority list in your 
current day jobs, but we appreciate the time here. So this is 
just really to tease this out a little bit.
    It is a pretty big issue when you think about the fact that 
we have authorized the training and equipping, and that the 
administration apparently did talk some with you all. If I 
understand correctly, for there to be a clear legal 
determination, then that would mean that an additional 
authorization would need to be approved by Congress for you all 
to be able to protect, to train, and to equip folks against 
Assad.
    That seems to me very problematic. I mean, you see the kind 
of consternation that takes place over the one that is now 
offered. To come back later with another one does not seem to 
me to be a particularly appropriate way to go about things. And 
so, Chairman Dempsey, what should be our thinking in that 
regard, and what is yours?
    General Dempsey. First, Senator, I actually chuckled when 
you said how much we enjoy coming over here. But the truth is 
over the course of my 4 years as chairman, I have come to a 
deep appreciation of the fact that we do have an Article 1 
responsibility to have these kind of conversations with you 
about our national security interests and the strategy to 
deliver them. So I actually want to thank you for running a 
very cordial hearing today on the topics.
    As far as the--what are we going to do about protecting the 
new Syrian forces as they are fielded, that question is--I 
mentioned the term ``active.'' We are in an active discussion. 
From the very beginning, though, we knew that we would come to 
the point where we had to make a decision about whether or not 
to protect them, and it was always my advice that we had to 
come to some conclusion to assure them that they would be 
protected. Now, the scope and scale of that protection is the 
part of this that is being actively debated. But the program 
will not succeed unless they believe themselves to have a 
reasonable chance of survival.
    The Chairman. Let me just follow up, and, again, I 
appreciate the fact that you are not just looking at these 
issues in your role, but other issues in the Pacific and all 
around the world. And you have got to balance the resources 
that we have available to us. But back to that issue, can you 
understand why many of us here, knowing that getting Turkey 
involved in some way on the ground, probably matters some to 
our success over time? If we are going to continue on the 
policy path that we are on and the strategy, it is important.
    So knowing that the President did not seek the authority to 
go against Assad--solely again, I am talking about not 
necessarily to take him on directly, but to be able to protect 
the train and equip personnel that will be reentering, and also 
to deal with some humanitarian issues and, let us face it, the 
Northwest Triangle right above Aleppo. That would give many of 
us, who certainly want to support this, some concern that there 
really is not a commitment level there to create, if you will, 
an effective ground effort. And I just wonder if you could 
respond to that a little bit.
    General Dempsey. I cannot ease your concerns, but I can 
tell you that when I provide my military advice, it is key to 
the success of the new Syrian forces that they will have a 
degree of protection. And that, as Secretary Carter has said, 
is under active discussion.
    The Chairman. Well, I assume then since that is key to 
success, those that are actually carrying out these activities 
would not be offended if Congress gave that authorization 
today.
    General Dempsey. I leave that to you, our elected 
officials.
    The Chairman. I wonder if Secretary Carter wants to respond 
to that, and I have one followup for you.
    Secretary Carter. Again, the practical answer to your very 
practical question is the one given by the chairman, namely 
that there can--there could be circumstances in which the 
forces that we train and equip come under attack from Assad's 
forces. And it is important to them or will be important to 
them to know whether and in what manner they will be supported. 
That is something under active discussion.
    I do not believe that the legal aspect of that has been 
determined, so I cannot tell you. You would have to ask the 
White House counsel or our DOD counsel whether anything 
additional was required in the way of formal authorities to do 
that. I simply cannot answer that question for you. But I do 
think it is a very meaningful practical question, and I give 
the same answer to it that the chairman does.
    The Chairman. And I will just--and I know that you all are 
in active discussion, and you have your own concerns, and those 
are not necessarily always addressed quickly, if you will, by 
those that make decisions in other places, and I understand 
that. I will say that from my perspective it does show a degree 
of lack of commitment from the White House that they would not 
go ahead on the front end, knowing that there is no way you can 
continue to recruit the folks that are involved in this train 
and equip program if they know they are going to come into the 
country and immediately be barrel bombed, and we are not going 
to support their efforts. It would be very difficult to recruit 
additional folks, as you have mentioned.
    And it does cause me to be concerned about the 
administration's overall commitment if that is not being dealt 
with in this authorization when we have authorized the train 
and equip program several months ago. So this is just something 
I raise.
    Secretary Carter, the reason for the question was the 
Persian Gulf war and the 600, almost 700,000 troops that were 
involved. To me, the enduring offensive ground combat language 
that was in the AUMF that was sent over would have allowed for 
that. It was a 7-month operation. That to me was not enduring--
and very successful I might add. And so, you are saying that a 
7-month operation from your standpoint would not qualify per 
the President's language? That would be too long.
    Secretary Carter. The reference you are using is to a 
campaign intended to destroy the military forces of another 
State. That is a fundamentally different kind of conflict from 
this one.
    The Chairman. I got that.
    Secretary Carter. So the ability to compare them eludes me.
    The Chairman. I understand you are making a difference 
there, and I understand the difference between going against a 
country and going against an entity like ISIS or Daesh. I guess 
what troubled me just a hair, and, again, we all respect deeply 
the way you have come in and taken charge. But talking about a 
seven-month operation being too long, that goes beyond, if you 
will, an enduring offensive. I just wish you would clarify that 
to some degree for the record. If it takes 2 or 3 years, I 
would assume you would not consider that to be enduring.
    Secretary Carter. What I have--I will just repeat what I 
said earlier about the time scale. We do not know how long it 
will take to defeat ISIL, and I explained earlier that I would 
not tell you that it was 3 years, which is the only duration 
included in this authorization of the use of military force. 
And it does not derive from any expectation of how long the 
campaign will last. It derives from the political calendar of 
our country.
    So that is the time scale named and specified in the 
proposed AUMF, and that is its origin. And that is the only 
period of time that is specifically named in the AUMF, and that 
is its derivation.
    The Chairman. I know that Senator Menendez indicated he did 
not have any questions. Okay, go ahead.
    Senator Menendez. I do not have any questions, Mr. 
Chairman. I just have a comment. First of all, I want to share 
with--along with what, I think, every member of this committee 
and of the Senate, our thoughts and prayers are with these 
service members who were lost. This underlines that there is 
risk once you don the uniform, even if you are not under enemy 
fire. And so, our thoughts and prayers are with the families.
    Also it reminds me as someone who did not vote for the 
process of sequester that we cannot ask you to do everything we 
ask you to do if we do not find relief from sequester here 
along the way. We seem to somehow ignore that, but I do not 
think both of you have that luxury. We have to deal with that.
    Finally, I do hope that we can get to a point to find the 
right balance, and that is not easy in this proposition, to 
give you an AUMF that gives you the wherewithal to degrade and 
defeat ISIL, but by the same token does not provide an open-
ended check. And I think that the real concern here is for some 
of us who lived under shock and awe and were told Iraqi oil was 
going to pay for everything, and so a lot of lives and national 
treasure were spent, that even well-intentioned efforts can 
move in a totally different direction.
    And this is the most critical vote that any Member of the 
Congress will take, which is basically a vote on war and peace 
and life and death. And so, for those of us who have been 
pursuing this to try to find the right spot, the one thing I 
want you to take away from the hearing is that I do not think 
there is a Democrat or Republican who does not believe that we 
have to degrade or defeat ISIL. We stand collectively with you.
    And as we struggle to get to the right wording with the 
right authorization, I just hope you can go back to the men and 
women who served this country with great sacrifice, and in that 
spirit we are united. And so, our only cause here is to find 
out how is the best way to ensure that and at the end not 
ensure, you know, an endless war, which is the concern of many.
    Secretary Carter. Thank you for saying that. It means a 
lot.
    Senator Menendez. Thank you both.
    The Chairman. Thank you. I was just handed a note just as I 
think you all were a minute ago. I just want to end--my last 
statement before thanking you by saying it is my understanding 
the DOD senior lawyers are sitting behind you. And it is my 
understanding as we leave here that the authorization that has 
been put before us and the 2001 authorization--neither one give 
clear cut authority for you all to be able to defend the train 
and equip program against Assad's assaults. I just want to 
state that. I do not think anybody is disagreeing with that. Is 
that correct?
    Secretary Carter. That is my understanding, and I would be 
happy to have our legal team speak to you about that. That is 
my understanding, Senator.
    The Chairman. Well, since I do not see them waving their 
hands back there, I am assuming they are speaking now. So I 
would just like to close also by telling you how much we 
respect you both and how much we appreciate your service to 
your country, how much we appreciate you taking the time to 
come up here. I think this has been very helpful to all of us. 
We wish you well.
    And the record will be open until the close of business 
Friday. I hope if questions come, you will answer them as 
promptly as possible.
    The Chairman. Again, thank you for your service and for 
being here today. The meeting is adjourned.
    Secretary Carter. Thank you, Mr. Chairman.
    [Whereupon, at 12:40 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


              Prepared Statement of Senator Barbara Boxer

    Chairman Corker, Senator Menendez--thank you for holding this 
important hearing today.
    I would also like to thank our panel of distinguished witnesses for 
appearing before the committee and for their service to our country.
    This hearing will focus on the most difficult and somber 
responsibility of this committee--authorizing the use of military 
force.
    Committing American service men and women to fight in a conflict 
overseas is not a decision I take lightly. That is why I have deep 
reservations about President Obama's proposed authorization for the use 
of military force--or AUMF--against the Islamic State of Iraq and the 
Levant (ISIL), which he submitted to Congress last month.
    I fear that the President's proposal leaves open the door for 
American combat troops to be sent to fight another ground war in the 
Middle East.
    The restriction on ``enduring offensive ground combat operations'' 
is no restriction at all. The language is vague, confusing, and overly 
broad. And it gives this President and the next one the sole discretion 
to interpret the phrase as they see fit.
    In fact, the Congressional Research Service (CRS) came to this same 
conclusion in a legal brief completed at my request. In the brief, CRS 
states that, ``It seems doubtful that a limitation on `enduring 
offensive ground combat operations' would present sufficient judicially 
manageable standards by which a court could resolve any conflict that 
might arise between Congress and the executive branch over the 
interpretation of the phrase or its application to U.S. involvement in 
hostilities.''
    I cannot and will not support such an AUMF.
    If we have learned anything over the last decade, it is that we 
cannot commit tens of thousands of American service men and women to 
another open-ended ground conflict in the Middle East.
    This is the commitment President Obama reiterated in his State of 
the Union Address, saying: ``Instead of getting dragged into another 
ground war in the Middle East, we are leading a broad coalition, 
including Arab nations, to degrade and ultimately destroy this 
terrorist group.''
    I believe that an AUMF against ISIL should better reflect the 
President's promise and the strategy he has laid out to the American 
people to work with a broad international coalition to confront these 
ruthless terrorists.
    As Congress works to debate and craft a new AUMF, I hope we will 
revisit the AUMF that passed out of this committee in December under 
the leadership of Senator Menendez. I voted for that AUMF because it 
supported the President's strategy of building a broad coalition to 
combat ISIL and reflected his commitment that American combat troops 
would not be sent back to the Middle East to fight another ground war.
    We must learn from the tragic foreign policy mistakes of the past. 
We cannot afford to make them again.
                                 ______
                                 

     Responses of Secretary of Defense Ashton Carter to Questions 
                    Submitted by Senator Bob Corker

                      assessment of isis strategy
    Question. What is your assessment of the effectiveness of the 
military and political strategy against ISIS?

    Answer. Militarily, the administration's counter-Islamic State in 
Iraq and Syria (ISIS) strategy is making progress. U.S. and coalition 
airstrikes are taking out ISIS's command and control, supply lines, 
fighters, and their military and economic infrastructure. The 
airstrikes have debilitated ISIS's oil producing, processing, and 
transportation infrastructure.
    There have been some successes on the ground in Iraq, where some 
organized forces--Iraq security forces or peshmerga--worked in 
coordination with the coalition and reclaimed areas once controlled by 
ISIS. Efforts to train and advise Iraq security forces are ongoing at 
four sites across Iraq, with cooperation from our coalition partners. 
There has also been some slow progress by the Government of Iraq (GOI) 
to integrate Sunni tribal forces in Anbar province into the Iraq 
Security Forces. The coalition is committed to continue working with 
both the GOI and the tribes to facilitate this integration of forces.
    Military means, however, will not be sufficient to counter ISIS. 
Iraq will be stable and secure only when it has a stable and inclusive 
government that addresses the needs of Iraq's diverse society. Prime 
Minister Abadi has taken steps to demonstrate his commitment to 
reconciliation and inclusive governance, but I refer you to the State 
Department for a more detailed assessment of the GOI's political 
progress.
    The situation is more complex in Syria due to the absence of a 
national military or civilian partner, and the lack of a cohesive 
opposition. Nonetheless, there has been success in Kobani, where a 
combination of airstrikes and local defenders forced ISIS to withdraw 
from the area. This is why the effort to train and equip appropriately 
vetted Syrian opposition forces to counter ISIS is so essential.
    However, to stop the conflict that has fuelled the rise of ISIS, 
there must ultimately be a political solution in Syria. This will take 
time and perseverance.
                        authority and resources
    Question. Do you feel you have the authority and resources today to 
achieve the goal of defeating ISIS both in Syria and Iraq?

    Answer. Yes. The National Defense Authorization Act (NDAA) for 
Fiscal Year (FY) 2015 and the DOD Appropriations Act, 2015, provide 
authority and funding for ongoing operations in support of Operation 
Inherent Resolve. The Iraq Train and Equip Fund, authorized by the NDAA 
for FY 2015, provides the authority and resources to train and equip 
Iraq security forces, including Kurdish and Sunni tribal forces. These 
statutes also enable a parallel effort against the Islamic State in 
Iraq and Syria (ISIS) in Syria, authorizing and funding a program to 
train and equip appropriately vetted Syrian opposition forces.
    It is my belief that the 2001 Authorization for the Use of Military 
Force (AUMF) provides adequate legal authority to use U.S. military 
force against ISIS in both Iraq and Syria. I also believe that the 2002 
Iraq AUMF provides legal authority for military operations against ISIS 
in Iraq and, in some circumstances, against ISIS in Syria.
    It is also my belief that the President's proposed ISIS-specific 
AUMF would give the Department the flexibility it needs to carry out 
the military campaign against ISIS, and would send a strong signal to 
our military, our coalition partners, and our adversaries that the 
United States is united in its effort to destroy ISIS.
    The Department's efforts have degraded ISIS, but the defeat of ISIS 
in Iraq and Syria will depend not only on the Department's continuing 
efforts, but also on political solutions both in Iraq and Syria.
                    title 10 train and equip program
    Question. Do you anticipate forces trained under the Title 10 Train 
and Equip program to one day fight Assad?

    Answer. The intent and focus of our Train and Equip program is to 
prepare appropriately vetted Syrian opposition forces to fight against 
the Islamic State in Iraq and Syria (ISIS). I recognize, though, that 
many of these groups now fight on two or three fronts, including 
against ISIS, other violent extremists, and the Syrian Government. The 
administration has always said that Assad must go as he has lost the 
legitimacy to lead, and that a political solution is necessary to end 
the war and stop the chaos that has fuelled the rise of ISIS.
                                 ______
                                 

              Response of GEN Martin Dempsey to Question 
                    Submitted by Senator Bob Corker

                          best military advice
    Question. Are U.S. forces today conducting operations in the fight 
against ISIS that are in line with your best military advice for 
achieving the administration's stated goals?

    Answer. Yes, operations involving U.S. forces are in line with my 
best military advice. In Iraq, the coalition is conducting operations 
that enable Iraqi forces to conduct offensive operations against ISIL. 
In recent months the coalition has blunted ISIL's momentum in Iraq, 
trained and equipped Iraqis and enabled Iraqis to retake lost terrain 
from ISIL. I believe the Government of Iraq must own this fight. We 
cannot do it for them--but we can help them to be successful. That is 
what our campaign plan in Iraq is designed to do.
    In Syria we continue to degrade ISIL through our air campaign and 
have made significant progress with our coalition partners in setting 
the stage for the train and equip program. Our comprehensive effort in 
both Iraq and Syria continues to depend upon a strong network of 
partnerships.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
